  Report No. D-2008-138          September 30, 2008




   Defense Information Systems Agency Controls
  Over the Center for Computing Services Placed in
Operation and Tests of Operating Effectiveness for the
    Period April 1, 2007, through March 31, 2008
Additional Information and Copies
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. If you have questions or would
like to obtain additional copies of this report, contact Ms. Patricia C. Remington at
(703) 601-5815 (DSN 329-5815) or Mr. Richard Ng at (703) 601-5805 (DSN 329-5805).

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704



                                                                     September 30, 2008

MEMORANDUM FOR UNDER SECRE TARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
              DIRECTOR, DEFENSE INFORMATION SYSTEMS
                 AGENCY


SUBJEC T: Report on Defense Information Systems Agency Controls Over the Center
          for Computing Services Placed in Operation and Tests of Operating
          Effectiveness for the Period April 1,2007, tlnough March 31, 2008
          (Report No . D-2008-138)

We are providing this report for your information and use No written response to this
report is required.                                            .

We appreciate the courtesies extended to the staff Please direct questions to
Ms.. Patricia C. Remington at (703) 601-5815 (DSN 329-5815) or Mr . Richard Ng at
(703) 601-5805 (DSN 329-5805) The team members are listed inside the back cover



                                            !~a
                                            Patricia A. Marsh, CPA
                                                                   mJ
                                            Assistant Inspector General
                                            Defense Financial Auditing Service
Table of Contents

Foreword                                                             i

Section I: Independent Service Auditor’s Report                      1

Section II: Information Provided by DISA                             7

        Overview of Operations                                       9
        Overview of the Control Environment                         14
        Information and Communication                               22
        Control Objective and Related Control Activities            23
        User Control Consideration                                  23

Section III: Control Objectives, Control Techniques, and Tests of
             Operating Effectiveness                                27

        Security Program                                            29
        Risk Assessment                                             30
        Security Plans                                              31
        Security Management                                         32
        Personnel                                                   34
        Resource Classification                                     39
        Account Management                                          42
        Physical Security                                           44
        Logical Access Controls                                     47
        Networks and Telecommunications                             50
        Access Monitoring                                           52
        Change Control                                              54
        Service Continuity                                          58

Section IV: Supplemental Information Provided by DISA               65

Scope                                                               69

Acronyms and Abbreviations                                          71

Report Distribution                                                 73
                                         FOREWORD

This report is intended for use by Defense Information Systems Agency (DISA) management, its
user organizations, and the independent auditors of its user organizations.

The Department of Defense (DoD) Office of Inspector General is implementing a long-range
strategy to conduct audits of DoD financial statements. The Chief Financial Officers Act of
1990, as amended, mandates that agencies prepare and conduct audits of financial statements.
The reliability of information processed at the DISA sites directly impact the ability of DoD to
produce reliable, and ultimately auditable, financial statements, which is key to achieving the
goals of the Chief Financial Officers Act.

This report focuses on the DISA Center for Computing Services (CS). CS provides computer
processing for the entire range of combat support functions, including transportation, logistics,
maintenance, munitions, engineering, acquisition, finance, medicine, and military personnel
readiness. CS offers computing services on CS and customer-owned platforms, including
computer operations, data storage, systems administration, security management, capacity
management, system engineering, Web and portal hosting, architectural development, and
performance monitoring.

This examination assessed DISA-defined controls over the CS environment. The report provides
an opinion on the fairness of the DISA presentation of its description of controls, the suitability
of the design of controls, and the operating effectiveness of key controls that are relevant to
audits of a user organization’s financial statements. As a result, this examination may preclude
the need for additional audits of general controls, such as those that user organizations previously
performed to plan or conduct financial statement and performance audits. From this
examination, we will also provide a separate audit report with recommendations to management
for correcting identified internal control deficiencies.

Effective internal control is a critical and required element to achieve reliable information for
management reporting and decision making. The concept of adequate internal control is the
fundamental objective of this American Institute of Certified Public Accountants Statement on
Auditing Standards No. 70 Report. Internal control is a process designed by management to
provide reasonable assurance that the activity achieves its objectives related to the reliability of
financial reporting, the effectiveness of operations, and compliance with applicable significant
laws and regulations. DISA has implemented internal control standards for the CS environment
that require strict compliance with DoD and DISA policies. The level of DISA compliance with
specific aspects of these regulations has a direct impact on the accompanying description of
internal controls and related control test results.




                                                  i
Section I: Independent Service Auditor’s Report




                       1
2
As discussed in the accompanying description of controls, CS did not have control procedures in
place to ensure that audit trails were being maintained and reviewed. This resulted in controls
not being suitably designed to achieve Control Objective 11, “Controls provide reasonable
assurance that access is monitored, suspected security violations are investigated, and
appropriate remedial action is taken.”

In our opinion, the accompanying description of the aforementioned controls presents fairly, in
all material respects, the relevant aspects of controls that had been placed in operation as of
March 31, 2008. Also, in our opinion, except for the deficiencies in the design of the controls
and their effect on the related control objectives described in the preceding paragraphs, the
controls, as described, are suitably designed to provide reasonable assurance that the specified
control objectives would be achieved if the described controls were complied with satisfactorily
and user organizations applied the controls contemplated in the design of the CS controls.

In addition to the procedures we considered necessary to render our opinion as expressed in the
previous paragraph, we applied tests to specific controls, listed in our description of the tests of
operating effectiveness, to obtain evidence about their effectiveness in meeting the related
control objectives, described in Section III of this report, during the period from April 1, 2007, to
March 31, 2008. The specific controls and the nature, timing, extent, and results of the tests are
listed in our description of the tests of operating effectiveness. This information has been
provided to user organizations of CS and to their auditors to be taken into consideration, along
with information about the internal control at user organizations, when making assessments of
control risk for user organizations.

In our opinion the controls that were tested, as presented in our description of the tests of
operating effectiveness, were operating with sufficient effectiveness to provide reasonable, but
not absolute, assurance that the control objectives specified in our description of those tests were
achieved during the period from April 1, 2007, to March 31, 2008.

The relative effectiveness and significance of specific controls over CS and their effect on
assessments of control risk at user organizations are dependent upon their interaction with
controls and other factors present at individual user organizations. We have performed no
procedures to evaluate the effectiveness of the controls at individual user organizations.

The description of the controls over CS is as of March 31, 2008, and information about tests of
the operating effectiveness of specific controls covers the period from April 1, 2007, to March
31, 2008. Any projection of such information to the future is subject to the risk that, because of
change, the description may no longer portray the controls in existence. The potential
effectiveness of specific controls at the service organization is subject to inherent limitations and,
accordingly, errors or fraud may occur and not be detected. Furthermore, the projection of any
conclusions, based on our findings, to future periods is subject to the risk that changes made to
the system or controls, or the failure to make needed changes to the system or controls, may alter
the validity of such conclusions.




                                                  4
6
Section II: Information Provided by DISA




                   7
8
                                        2007 SAS-70
              Statement on Auditing Standards
                                            Section II



A. Overview of Operations

Defense Information Systems Agency

Defense Information Systems Agency (DISA) is a combat support agency responsible for
planning, engineering, acquiring, fielding, and supporting global net-centric 1 solutions to serve
the needs of the President, Vice President, the Secretary of Defense, and other Department of
Defense (DoD) Components, under all conditions of peace and war. DISA is the provider of
global net-centric solutions for the nation's war fighters and all those who support them in the
defense of the nation. The core services are Acquisition, Enterprise Services, Network
Operations, Network Services, Net-Centric Enterprise Services, and Global Information Grid
(GIG) Bandwidth Expansion. The Field Security Office (FSO), under the GIG Operations
Directorate, and other DISA organizations are included only as they support Center for
Computing Services (CS).


Center for Computing Services

CS provides computer processing for the entire range of combat support functions, including
transportation, logistics, maintenance, munitions, engineering, acquisition, finance, medicine,
and military personnel readiness. With more than 3,000,000 users, CS operates over 1,400
applications in 18 geographically separate facilities utilizing more than 35 mainframes and more
than 6,000 servers. The supported applications: 1) provide command and control of war fighting
forces, 2) facilitate mobility of the war fighters through maintenance of the airlifted and tanker
fleets, 3) provide war fighter sustainment through resupply and reorder, and 4) manage the
medical environment and patient care.




1
 A continuously evolving, complex community of people, devices, information and services interconnected by a
communications network to achieve optimal benefit of resources and better synchronization of events.


                                                       9
CS features diverse locations, a defense-in-depth philosophy, and dual high-capacity Defense
Information Systems Network (DISN) connectivity. CS also utilizes automated systems
management to control computing resources and realize economies of scale. CS has adopted
assured computing philosophies and has implemented initiatives in the Unisys and IBM
mainframe environments to ensure that information and mission-critical applications are
continuously available to customers. Such initiatives include facility upgrades, improved
software and equipment availability, diverse and redundant communications, and measures to
remotely replicate data. Assured computing, coupled with the ability to rapidly increase
processing and storage capacity via utility contracts, enables DISA to provide the availability and
surge capabilities that customers require.

CS supports computing operations on both DISA-owned and customer-owned platforms.
Computing services include computer operations, data storage, systems administration, security
management, capacity management, system engineering, web and portal hosting, architectural
development, and performance monitoring. Computing services are provided by a highly skilled
workforce and performed in state-of-the-art computing facilities strategically located throughout
the Continental United States (CONUS); Vaihingen, Germany; and Pearl Harbor, Hawaii. DISA
facilities are operational 24 hours a day, 7 days a week, 365 days a year, and support both
unclassified and classified computing environments. Services are available to the Services,
Defense agencies, and combatant commanders. Chart 1 provides the organizational structure of
CS.


                                                        Defense Information Systems Agency
                                                                        Computing Services

                                                                                 Director                        Technical
                                                                                                                 Technical Director
                                                                                                                           Director

                                                                                                                  Office
                                                                                                                   Office of
                                                                                                                          of the
                                                                                                                              the CIO
                                                                                                                                  CIO
                                                                      Technical Program Director
                                              Processor LOB                                                         Chief
                                                                                                                     Chief of
                                                                                                                            of Staff
                                                                                                                               Staff
                                                                                                                  Strategic
                                                                                                                  StrategicPlanning
                                                                                                                             Planning
                                              Services LOB                    Deputy Director
                                                                                                                  Management
                                              Storage LOB                     Military Deputy                    Support Division


                                                                                                             Special
                                                                                                             Special Assistant
                                                                                                                     Assistant for
                                                                                                                                for
                                                                                                            Performance
                                                                                                            Performance & & Metrics
                                                                                                                            Metrics



          Resource Management              Customer                            Operations                Logistics Division                   Infrastructure
                Division               Management Division                      Division                                                    Management Division




                 Defense Enterprise                 Defense Enterprise                  Defense Enterprise                     Defense Enterprise
                 Computing Center                   Computing Center                    Computing Center                       Computing Center
                  Mechanicsburg,                 Oklahoma City, Oklahoma               Montgomery, Alabama                        Ogden, Utah
                    Pennsylvania



          Defense Enterprise            Defense Enterprise            Defense Enterprise                Defense Enterprise                 Defense Enterprise
           Computing Center             Computing Center              Computing Center                  Computing Center                   Computing Center
          Vaihingen,
          Vaihingen, Germany           Pearl Harbor, Hawaii          ISC San Antonio, TX               ISC Columbus, Ohio                  St. Louis, Missouri



          Defense Enterprise           Defense Enterprise               Defense Enterprise                 Defense Enterprise                 Defense Enterprise
          Computing Center             Computing Center                 Computing Center                   Computing Center                   Computing Center
           PE Denver, CO              PE Chambersburg PA               PE Warner Robins GA                  PE San Diego CA                   PE Huntsville, AL

                       Defense Enterprise                                                                                      Defense Enterprise
                                                         Defense Enterprise                 Defense Enterprise                                          As of 30 April
                       Computing Center                                                                                        Computing Center
                                                         Computing Center                   Computing Center                                            2008
                        PE Jacksonville, FL                                                                                     PE Dayton, OH
                                                         PE Rock Island, IL                  PE Norfolk, VA                                             OPR: GS4




                                                                           Chart 1


                                                                                10
Headquarters. The primary headquarters for DISA CS is located in Falls Church, VA. There
are other headquarters elements located in Chambersburg, PA; Denver, CO; Oklahoma City, OK
and Pensacola, FL. CS is organized into the following five primary divisions.

Resource Management Division. The Resource Management Division (RMD) serves as the
enterprise manager for managerial accounting, budget formulation, rate development, and
financial execution management. RMD performs such functions as: budget formulation and
execution, workload customer invoicing, fund certification of acquisition documents, capital
budgeting, and execution and preparation of the annual customer planning estimates. RMD is
located at four primary locations: Jacksonville, FL; Chambersburg, PA; Denver, CO; and
Pensacola FL.

Customer Management Division. The Customer Management Division (CMD) provides the
total life cycle management of all customer workload support including requirements definition,
engineering, proposal development, acquisition, implementation, Service Level Agreements
(SLAs), as well as billing and invoicing. The CMD also performs the full range of customer
relation functions for CS and coordinates customer related issues with other DISA organizations.
CMD is a virtual organization with personnel located in Falls Church, VA; Denver, CO;
Chambersburg, PA; Mechanicsburg, PA; Oklahoma City, OK; Montgomery, AL; Ogden, UT;
and San Antonio, TX.

Operations Division. The Operations Division advises the Director of CS on all principal
operations and has the overall responsibility for issuing operations and security standards,
policies, plans, standard business processes, and standard operating procedures. This division:

   •   tasks other CS elements as required to achieve the CS mission;

   •   manages and assesses operations and security of all assigned DISA information
       processing, communications, and network systems;

   •   provides appropriate assets in response to contingencies and exercises;

   •   oversees the overall operational performance and effectiveness of the Defense
       Information Infrastructure (DII) efforts implemented within CS as well as assigned
       systems;

   •   develops and maintains CS programs for configuration management, executive software,
       capacity management, incoming projects, and contingency operations; and

   •   manages the Network Operations for CS and integrates it into the DISA Network
       Operations program.

The Operations Division is organized in three layers – headquarters-level policy and plans,
headquarters-level centralized operations, and direct operations. The direct operations layers
include the operating sites and the Communications Control Centers (CCCs).



                                               11
           Operating Sites. The operating sites are called Defense Enterprise Computing Centers
           (DECCs). The DECCs located outside the continental United States are DECC Pacific in
           Pearl Harbor, Hawaii and DECC Europe in Stuttgart, Germany. They provide processing
           services for DoD elements within their theater of operations. The DECCs in CONUS are
           divided into the following mission configurations:

                   1) System Management Centers (SMCs). The primary responsibility of each
                   SMC is systems management and customer support functions for the mainframe
                   and server computing environments. The SMCs are located in Mechanicsburg,
                   PA; Montgomery, AL; Ogden, UT and Oklahoma City, OK.

                   2) Infrastructure Service Centers (ISCs). The ISCs perform system
                   management for service-based applications and other specialized fielding efforts
                   from CS customers. The ISCs are located at Columbus, OH, St. Louis, MO and
                   San Antonio, TX.

                   3) Processing Elements (PEs). The PEs serve as touch labor 2 or “lights dim”
                   components, facility management, hardware support, physical security, touch
                   labor for communication devices, and touch labor for media management are the
                   primary responsibilities for each PE. The PEs are located in Chambersburg, PA;
                   Dayton, OH; Denver, CO; Huntsville, AL; Jacksonville, FL; Norfolk, VA; Rock
                   Island, IL; San Diego, CA and Warner Robins, GA.

                   4) Central Communication Centers (CCCs). The primary responsibility of
                   CCCs are to manage all classified and unclassified network devices. The CCCs
                   are located at SMCs in Montgomery, AL and Oklahoma City, OK.

Logistics Division. The Logistics Division supports the Director of CS on all logistics,
acquisition, maintenance, and property management activities and provides command direction
and guidance to execute integrated logistics support for assigned activities and systems. This
division has offices in Chambersburg, PA, Denver, CO and liaison officers at each SMC.

Infrastructure Management Division (IMD). The IMD plans, engineers and maintains the
fundamental, non-revenue producing elements required by the DECCs to perform operational
processing in support of customer applications. This division:

      •    provides planning, acquisition, configuration, and quality/risk management for
           infrastructure initiatives;

      •    provides Level III communications troubleshooting and complex problem management
           for the enterprise;

      •    develops tactical plans, and engineers/implements solutions for future technologies;




2
    Touch labor refers to personnel providing physical on-site work needed when systems are remotely managed.


                                                         12
   •   engineers and deploys a standard communications, hardware, software, and enterprise
       systems management architecture to ensure interoperability; and

   •   provides tactical and long-range facilities planning for DISA processing sites.

This division has offices in Falls Church, VA, Denver, CO, Pensacola, FL, and Chambersburg,
PA.

Information Assurance Support

Almost all DISA elements interact with CS to some degree. The following DISA elements have
a direct relationship with CS on Information Assurance (IA).

Chief Information Officer. The Chief Information Officer (CIO) provides staff support in
accomplishing Information Resource Management (IRM) duties, mandated by the Clinger-
Cohen Act. The CIO develops IRM and Information Technology (IT) policies, performs IT
management, strategic planning, IT investment criteria and incorporates and disseminates
architecture and standards guidance. The CIO advises on acquisitions for DISA IT and
coordinates with the Office of the Secretary of Defense on IRM, IT, and IT acquisition matters.
The CIO is the Designated Approving Authority (DAA) for DISA-owned and operated internal
IT enclaves and networks. The CIO manages the agency-wide programs for Privacy Act and
records management, manages implementation of electronic business and electronic commerce
for DISA, and provides support for DoD Information Assurance Awareness training.

Field Security Operations. FSO provides functional Information Assurance Manager (IAM)
services to CS. The mission of FSO is to provide information systems, network security
products, and direct funding and reimbursable services throughout DoD, including the combatant
commands, the Services, and Defense agencies. The FSO supports the National Command
Authority, combatant commanders, Joint Task Force-Global Network Operations (JTF-GNO),
the Services, and Defense agencies through Global Network Operations, Computer Emergency
Response Capabilities, and Information System Security Services. The FSO provides such
support by directing, managing, and protecting critical elements of the GIG. In this capacity, the
FSO is the Certifying Authority for the DISA DAA. The FSO:
       •   develops, implements, and maintains security guidance and processes;
       •   conducts full scope security reviews;
       •   provides security training, security training products, and system administrator (SA)
           certification; and
       •   implements security architecture and information assurance (IA) tools

Manpower, Personnel, and Security
The Manpower, Personnel, and Security (MPS) Directorate provides plans, programs, and
oversight worldwide in the mission areas of civilian personnel, military personnel, human
resource development, organization and manpower program administration, payroll, travel,
transportation, mail management, visual information, security, and command information. In
addition to worldwide responsibilities, MPS is responsible for providing direct service support to
all DISA activities in the National Capital Region.


                                               13
The Civilian Personnel Division, within MPS, advises and assists the Director of DISA in
formulating, executing, and evaluating civilian personnel plans and programs; provides technical
guidance and assistance to the DISA managers and employees; and oversees DISA civilian
personnel management activities worldwide.

The DISA Security Division, within MPS, provides security policy, guidance, and oversight
(except for Information Systems Security) to DISA activities worldwide, using a multi-
disciplined and risk management approach. This division also provides traditional security
assistance in information, personnel, physical and special security reviews, and assessments in
support of the DISA Security Certification and Accreditation process.

Procurement Directorate
The Procurement Directorate has four contracting organizations. One of the four is the
Defense Information Technology Contracting Organization located at Scott Air Force Base,
Illinois. It supports CS and is responsible for the procurement of commercial information
technology services and equipment required by DoD agencies and other U.S. Government
agencies.

B. Overview of Control Environment

IA controls are layered and are applied through procedures and physical applications. Controls
are employed to protect resources from theft, loss, damage, inadvertent disclosure, compromise,
and deliberate attempts to gain access by forced or surreptitious means. Protection is
accomplished through the employment of countermeasures to deter, delay, detect, assess, and
respond to unauthorized activity.

CS has the responsibility of providing core services and meeting the CS customer expectations
through professional and consistent operations services and standard implementation of DoD
regulations and DoD policies. CS is responsible for continual refinement and analysis of
operations performance metrics and practices to identify and implement opportunities for
improvement in the execution of core operations services. CS is also responsible for maintaining
the integrity of the security posture of the operations environment.

Security Management

Security Review Program Guidance. In general, security review programs focus on
management actions that establish the DAA and the processes that support the accreditation of an
Automated Information System (AIS). DoD implemented the Office of Management and
Budget (OMB) Circular A-130, “Management of Federal Information Resources”, February 8,
1996, requirements for a security program through DoD Instruction 8510.01, “DoD Information
Assurance Certification and Accreditation Process (DIACAP),” 28 November 2007, and other
DoD policies. DISA Instruction 630-230-19, “Automated Data Processing Information
Assurance”, 2 March 2007, prescribes policy and assigns responsibilities for implementing,
managing, and maintaining the DISA Information Systems Security Program and implements the
DoD programs, including DIACAP and designation of DAA. The DIACAP and resultant


                                               14
Certification and Accreditation (C&A) program are major components of DISA’s security
review program.

Security Control Program at the DECCs. DISA CS Security Handbook; the Information
Assurance Vulnerability Alert Handbook; and Security Technical Implementation Guidelines
(STIGs), primarily cover the OMB, DoD, and DISA requirements for the primary operational-
level guidance for implementation of AIS security controls. The DECC security management
organization structure and general business practices support the security program, including
review of security controls.

Security Roles and Responsibility

DISA DAA/CIO. The DISA DAA/CIO retains the overall responsibility for the C&A as it
pertains to the DIACAP process of the CS sites.

CS IAM. The CS IAM function/services are contracted to and performed by the FSO. The CS
IAM provides guidance and direction to field units and advice to CS on IA, communications, and
emanations security. The CS Chief of Operations and the CS Chief of Security oversee and
ensure delivery of CS IAM functions/services by FSO.

CS Security Manager (SM). The CS SM function/services are provided to CS by Manpower,
Personnel and Security (MPS). The functional CS SM provides guidance and direction to field
units and advice to physical, industrial, personnel, and information security as well as security
management. The CS Chief of Operations and the CS Chief of Security oversee and ensure
delivery of CS SM functions/services by MPS.

Site IAM. The Site IAM develops and maintains an organization or DoD information system-
level IA program that identifies IA architecture, requirements, objectives, and policies;
personnel; and processes and procedures. Depending upon the site, the IAM reports to the Chief
of Security, the Deputy Director, or the Director of the site.

Site Information Assurance Officer (IAO). The site IAO assists the IAM in meeting the duties
and responsibilities outlined above. The site IAO reports to the IAM of the site.

Risk Assessments

CS implemented a risk assessment process to identify and manage risks that could affect
customer organizations. This process requires a formal risk assessment, which is part of the
System Security Authorization Agreement (SSAA). The process also includes an external and
internal compliance validation and procedures to maintain an acceptable level of risk.

Formal Risk Assessment. The FSO prepares the formal risk assessment for each CS site. The
threat is determined by validating countermeasures that have been implemented to determine the
residual risk. Various tools are used to validate the effectiveness of the implemented
countermeasures, including the Security Readiness Review (SRR) and the vulnerability scan
used to determine the effectiveness of the network, systems, physical, personnel, information,
and industrial security procedural countermeasures. These can be conducted by the FSO or as
self-assessments performed by site personnel. Environmental and facility reviews conducted by


                                                15
CS Facility Engineers are used to determine the effectiveness of facility and environmental
countermeasures. Various Federal Emergency Management Agency (FEMA) web sites are used
to determine weather, climatic, and natural threats.

The IAMs for DECCs are responsible for reviewing and identifying pen and pencil changes to
risk assessment documents on an annual basis. If there are no changes noted, the formal risk
assessment document is not re-dated or re-signed. The CS IAM is responsible for reviewing and
making changes to the DECC PEs risk assessment documents as they occur. The formal risk
assessment is a required appendix to the SSAA under the DIACAP by DISA DAA who is the
DISA CIO. A complete formal review and documented risk assessment is only conducted every
three years.

Mission Assurance Category. The Mission Assurance Category (MAC) reflects the importance
of information relative to the achievement of DoD goals and objectives, particularly the war
fighter combat mission. MAC levels are the basis for determining availability and integrity
control requirements. DoD has three defined MAC levels.

       • MAC I. Systems handling information that is vital to the operational readiness or
       mission effectiveness of deployed and contingency forces in terms of both content and
       timeliness. The consequences of loss of integrity or availability of a MAC I system are
       unacceptable and could include the immediate and sustained loss of mission
       effectiveness. MAC I systems require the most stringent protection measures.

       • MAC II. Systems handling information that is important to the support of deployed
       and contingency forces. The consequences of loss of integrity are unacceptable. Loss of
       availability is difficult to deal with and can only be tolerated for a short time. The
       consequences could include delay or degradation in providing important support services
       or commodities that may seriously impact mission effectiveness or operational readiness.
       MAC II systems require additional safeguards beyond best practices to ensure assurance.

       • MAC III. Systems handling information that is necessary for the conduct of day-to-
       day business, but does not materially affect support to deployed or contingency forces in
       the short-term. The consequences of loss of integrity or availability can be tolerated or
       overcome without significant impacts on mission effectiveness or operational readiness.
       The consequences could include the delay or degradation of services or commodities
       enabling routine activities. MAC III systems require protective measures, techniques, or
       procedures generally commensurate with commercial best practices.

Compliance Validation

DISA compliance validation is conducted externally by the FSO and within CS using the FSO
Toolkits for compliance with the GS4 Letter of Instruction (LOI) 08-03, “Mandatory Information
Assurance Guidance”, June 6, 2008. The results from the FSO review are maintained in the
Vulnerability Management System (VMS). FSO categorizes the vulnerabilities into four
categories, based on severity.




                                               16
   •   Finding Category I. Any vulnerability that may result in a total loss of information or
       which provide an unauthorized person or software immediate access into a system, gains
       privileged access, bypasses a firewall, or results in a denial of service.

   •   Finding Category II. Any vulnerability that provides information that has a high
       potential of giving access to an unauthorized person, or provides an unauthorized person
       the means to circumvent security controls.

   •   Finding Category III. Any vulnerability that provides information that potentially could
       lead to an unauthorized access.

   •   Finding Category IV. Any vulnerability that is all other possibilities that contributes to
       degraded security.

External Compliance Validation

The external compliance validation is conducted by the FSO. Because of the number and size of
the sites, a complete review of each site cannot be made on an annual basis. The complete
review is conducted during a three-year cycle to coincide with the formal accreditation cycle.
Per DIACAP, accreditation decisions are made for a maximum of a three-year period. Annual
reviews conducted by the FSO are known as Information Assurance Reviews (IARs). The IAR
includes a review of the output from the FSO Toolkits, documentation in VMS, manual
checklists where toolkits are not available, and a vulnerability or penetration scan. All IAR
results are entered into VMS and used by the DISA CIO for the accreditation decision. There are
several components to the IAR:

   •   Traditional Review. The traditional review determines whether policies and procedures
       on physical, information, personnel, industrial, communications, and emanations security
       comply with DoD regulations and DISA instructions. It also validates whether policies
       and procedures are correctly and adequately implemented.

   •   Technical Review. The technical review uses a combination of automated and manual
       checks for network devices, operating systems, databases, and web applications to verify
       that configuration settings are In Accordance With (IAW) the applicable STIGs.

   •   Vulnerability Scans. The vulnerability scan process utilizes a commercial automated
       scanning tool that checks for known vulnerabilities. The scan is a two-step process. The
       first step is external to the perimeter of the enclave and determines the robustness of
       perimeter defenses. The second step is internal to the perimeter of the enclave and
       determines the robustness of the defense of each device within the enclave. IAW
       Compliance Task Order (CTO) 08-005, internal scan results are imported into VMS on a
       monthly basis.

Internal Compliance Validation

The internal validation process is enforced via the Mandatory Information Assurance Guidance,
GS4 LOI 08-03. This process ensures devices are approved prior to connecting to the network,


                                               17
using the FSO Toolkits and checklists as a self-assessment. These results are imported or
entered into VMS.

Vulnerability Management System

VMS is a DoD vulnerability management system for Information Assurance Vulnerability
Management (IAVM) and STIG compliance. The IAVM portion is used to track
acknowledgement and compliance with alerts, bulletins, and technical advisories as directed by
Chairman of Joint Chiefs of Staff Instruction 6510-01D, “Information Assurance (IA) and
Computer Network Defense.” Information for all assets is registered in VMS: system details,
operating systems, owner, and managing site.

There is a Plan of Action and Milestone (POA&M) process for vulnerabilities that cannot be
remediated within the established timeframe. The CS IAM reviews the POA&Ms and
concurs/non-concurs. The CIO has the final approval for any POA&Ms. VMS also notifies the
managing System Administrators (SAs) via email of any newly released IAVMs. The STIG
portion identifies vulnerabilities, and tracks remediation of those vulnerabilities.

GIG Monitoring

There are network Intrusion Detection Systems (IDSs) located on the GIG that monitor standard
security policy. The GIG network IDSs, monitored by Global Network Security Center (GNSC),
is (are) known as the Joint Intrusion Detection System (JIDS). The GNSC monitors all JIDS on
the GIG within the CONUS. There are various other centers located around the world and all
centers feed into a DoD Global Network Operations Center (GNOC). This group identifies any
information threat on an isolated, regional, or global basis. The GNSC notifies all parties of any
type of potential unauthorized attack or access, and works with the managing CCC and site
Information Assurance (IA) staff to help identify, isolate, investigate, and remediate potential
threats.

CS Enclave Perimeter Monitoring

All CS enclave perimeters have a layered defense that consists of Access Control Lists (ACLs)
on the perimeter router, firewalls, and a network IDS. The security staff located in the CCCs
develops the security profiles for the enclave perimeter router, perimeter firewall and perimeter
network IDSs and monitor their respective reports and audit logs for unauthorized access or
activities. This is for the entire CONUS-based CS network. The security staffs located at
DECCs Europe and Pacific perform the same tasks locally for their respective enclave perimeter
devices. Suspected incidents are investigated in concert with trusted agents from the customer
base or data owners to determine the legitimacy of the incidents. If the suspected incident cannot
be validated as authorized, they are reported to the Liaison Officer (LNO) and to the GNSC. The
GNSC then directs all actions for this incident and closes it or turns it over to the appropriate
investigative agency for action. The Computing Service Cell (CSC) reports the incident to CS
Issue Center within the CS Operations Division.

Enclave Monitoring




                                               18
Host Based Security System (HBSS) is currently being deployed across the CS environment for
any assets on the Out of Band (OOB) network. Some sites also use a host-based IDS. Validated
unauthorized privileged accesses are reported up the same chain as other incidents.

FSO Monitoring

The FSO conducts external vulnerability scanning once a year for the Non-Classified Internet
Protocol Router Network (NIPRNET) and Secret Internet Protocol Router Network (SIPRNET)
connections at all sites. If the scan does not penetrate or identify a weakness in the enclave
perimeter, the scan is terminated. If the scan does identify a weakness in the enclave perimeter,
the scan continues to further identify weaknesses. The results are entered into VMS and are
briefed to the site director and senior staff.

Segregation of Duties

Segregation of duties is handled IAW the DISA CS Security Handbook.

Personnel Controls

All personnel must meet employment requirements and are subject to a favorable personnel
security investigation. An authorization document, known as the Joint Table of Distribution
(JTD) authorizes all Government (civilian and military) positions. This document also identifies
the sensitivity, IT level, and security clearance requirement for each position. These three
elements determine the type of investigation required and the type and frequency of periodic
reinvestigations.

All personnel are subjected to various levels of personnel security investigation, which is based
on the level of privileges they have within systems. All personnel possess Secret clearance with
IT-2 level, except for those with privileged access (SAs, Database Administrators (DBAs),
Storage Administrators, Network Administrators, etc.) The SAs are required to have Secret
clearance with IT-1 level. All personnel security is managed and monitored by DISA MPS6 in
concert with site SMs. The CS SM submits all personnel security actions through DISA MPS6.
The DISA Security Office issues requests for additional information, intent to deny or revoke,
and actual revocations of security clearances or favorable investigations.

Environmental Controls

The Facilities Engineering Branch, a CS Headquarters organization in Denver establishes facility
standards for the DECCs on electrical distribution, Uninterrupted Power Supply (UPS), fire
detection and fire suppression, and climate control IAW national standards.

   •   Electrical Distribution. Most sites have at least two electrical power feeds either from
       the installation or another commercial source. There are automatic voltage controls at all
       computing facilities and alerts of any potential electrical problems. There is a master
       power switch located at the primary entrances in all computer facilities.

   •   UPS. Each site has an UPS consisting of constantly charged batteries in case of power
       disruption. The UPS is constantly monitored and alerts staff of any potential problem.


                                                19
       Each site is also equipped with generators that provide an automatic start-up power
       source. Backup power sources are tested on a periodic basis to ensure that they function
       properly and provide sufficient electrical power to meet site operating requirements.
       Additional fuel is stored on site for sustained backup operations. The fuel is tested on an
       annual basis for contamination.

   •   Fire Detection. Most administrative areas are protected by fire detection systems that
       alarm either locally or at a responding fire department. All computing facilities are
       protected by automatic fire detection systems that alarm at the responding fire
       department.

   •   Fire Suppression. All administrative areas are protected by either automatic or manual
       fire suppression systems. All computing facilities are protected by automatic fire
       detection systems (smoke or fire detectors) that respond to heat or smoke to suppress
       fires. Fire prevention is an inherent responsibility of every CS employee and requires
       alertness and cooperation from all individuals and agencies that may be in the building.
       Each site follows the facility emergency plan for the protection of all Government
       employees and private industry tenants.

   •   Climate Control. There are mechanical systems that provide the constant and desired
       temperature, humidity, and air particles. The climate control system is constantly
       monitored and alerts of any potential problem. Many of the computer facilities are
       equipped with water detection systems and a water drainage system to handle excess
       water under the raised floor area.

Physical Security Controls

   •   Administrative Areas. All buildings and administrative areas have limited entry points
       and all are protected by automated access card systems or by guards located at the
       entrances. In some cases, both are used; guards protect the area during normal duty hours
       from Monday through Friday, and the automated access card system controls access
       during all off-duty hours. All personnel must wear identification badges while in the
       area. Visitors to all sites must be signed into the administrative area and obtain local
       badges that must be displayed while in the buildings. The issuance of an escort-required
       or a non-escort required visitor badge depends on the validation of visitor’s investigation
       type and security clearance.

   •   Computer Facility. All computer facilities have implemented the following physical
       controls:

          o controlled access and controlled perimeter for CS facilities located on a military
            or General Services Administration (GSA) installation;
          o verification of DoD identification such as a Common Access Cards or DISA
            badge;
          o enclosed perimeter by a fence that controls vehicle and pedestrian access for
            facilities not located on a military or GSA installation;



                                               20
           o routine patrol and random door checks performed by local military, DoD, or GSA
             guards in accordance with the local base support agreement; and
           o access to the administrative areas controlled by guard, mechanical cipher, or
             automated access control system.

   •   Facility Support Areas. Access to facility support areas is controlled either by fencing,
       automated access control systems, or key locking devices. These areas are not
       considered “Restricted Areas”. Most of the facilities have closed circuit television
       coverage of all doors to computer facilities, buildings, and facility support areas inside
       and outside of the buildings. A local guard monitors the cameras at some sites. Where
       cameras are not monitored, access is recorded and surveillance tapes are maintained for at
       least 30 days.

   •   Information Security Controls. Only properly cleared personnel with a need-to-know
       are granted access to classified information. All classified paper documents are stored in
       an approved GSA security container. Combinations to approved storage areas and
       security containers are restricted to only those who need to gain access, and a Standard
       Form (SF) 700 identifies who holds the combinations. The combination is treated as
       classified information and must be located in another security container. All security
       containers and approved storage areas must have a SF 702 on the outside and must be
       annotated with the initials of the person opening the containers as well as the date and
       time the container was open and closed. Security containers are to be inspected daily and
       annotated on the SF 702 to prevent security breach.

       All classified transmissions that egress the perimeter router are encrypted using National
       Security Agency (NSA) Type I encryption devices and keying material. In some cases,
       transmissions inside the enclave are not encrypted but are required to be in an appropriate
       Protected Distribution System (PDS). The Federal Information Processing Standards
       (FIPS) 140-2, “Security Requirements for Cryptographic Modules”, released May 25,
       2001, requires that encryption be used to protect the transmission of unclassified
       information, when required by the customer in the SLA. All computing areas that
       process classified information must be in an approved classified information storage area
       or continuously be manned by properly cleared personnel who can observe every device
       (computing and networking) processing classified information. Unless requested by the
       customer, all information stored on magnetic media is not encrypted. NSA devices are
       used for classified information and FIPS 140-2 compliant devices are used for
       unclassified information. All classified and unclassified information must be destroyed
       using approved methods of destruction IAW DoD Regulation 5200.1-R, “Information
       Security Program”, January 1997.

Industrial Security Controls

Contracts must address security requirements. The contract should identify:

   •   the requirement for IT level and the personnel security investigation;




                                               21
   •   the requirement for the contractor to provide visit request information for all contractor
       personnel that need to visit a Government location;

   •   the requirement to comply with all security policies and procedures at Government
       locations;

   •   the configuration requirement for contractor-provided equipment that will be connected
       to Government networks and enclaves, if no Government-furnished equipment is
       provided; and

   •   the requirement for a DD Form 254, for contracts that require access to classified
       information, that outlines the required level of security clearance, where classified
       information can be accessed, and any special instructions.

C. Information and Communication
Information Systems Overview

The concept of operations for CS emphasizes and describes a “customer focused” environment,
organized with SMCs, Operational Support Teams (OSTs), and production operations
environments designed to provide a problem resolution and a situational awareness posture over
all domains of a dynamic production environment that is operational 24 hours a day, 7 days a
week, and 365 days a year. CS customer support demands include multiple classifications of
secure environments, multi-vendor UNIX environments, Intel-based server environments, IBM
and Unisys mainframe environments, multiple commercial database environments, Commercial
Off-The-Shelf (COTS) applications, Government Off-The-Shelf (GOTS) applications,
customized legacy systems, web-based systems, voice-based systems including commercial
telephone switch support, Private Branch Exchange (PBX) support, and multiple
communications infrastructures. CS must have knowledge of the products, services, and
applications used by its customer base, as well as information regarding the internal health of the
CS IT environment to provide professional, knowledgeable, and proactive support.

Communication

CS has implemented various methods of communications to ensure that all employees
understand their individual roles and responsibilities. These methods include New Employee
Orientation, Individual Development Plan (IDP), CS Plan of the Week that summarizes various
significant events, and the use of electronic mail messages to communicate time-sensitive
messages and information. The Director of CS holds a weekly staff meeting with all CS
Division Chiefs. All site Chiefs also hold periodic staff meetings as appropriate. Every
employee within CS has a written Position Description (PD), and every PD includes details of
what responsibilities are required of the individual.

The CS Business Management Center (BMC) is responsible for headquarters level customer
relations and acts as the face to the customer. Each operating site within CS maintains detailed
records of problems reported by customer and problems or incidents noted during processing and
monitor such items until they are resolved. The LNO is responsible for the up-channel reporting


                                                22
of operations incidents. Categories of incidents have been identified as high impact, high
visibility, or high interest requiring detailed reporting to a defined chain of senior management.
Specific information requirements have been defined for the incident reports to help ensure
completeness, accuracy, and understandability. Standard trouble tickets that provide the basic
information must be cleansed to ensure that these informational requirements are met and
consolidated into the defined incident reporting format.

D. Control Objectives and Related Control Activities
CS control objectives and related controls are included in Section III, “Control Objectives,
Controls Activities, and Tests of Operating Effectiveness,” of this report to eliminate the
redundancy that would result from listing them in this section and repeating them in Section III.
Although the control objectives and related controls are included in Section III, they are
nevertheless, an integral part of CS control descriptions.

E. User Control Considerations
Computing Services User Controls

CS and its customers share the controls over the users. This shared environment normally is
delineated between the computing environment and the applications.

Customer User Controls

Customers are expected to have general user controls, at a minimum, built into their applications
and should be delineated in the application SSAA documentation.

SLAs

An SLA is a contract between a service agency and a customer agency that defines the
parameters of the services. The SLA defines the services to be delivered, problem management,
and customer duties and responsibilities. The SLA outlines, at a minimum, the responsibilities
over system access, security controls, data disposition and sharing, data encryption, and data
backup for both CS and the customers.

F. Acronyms
ACL            Access Control List
AIS            Automated Information System
BMC            Business Management Center
C&A            Certification and Accreditation
CAC            Common Access Card
CCC            Central Communication Center
CIO            Chief Information Officer
CMD            Customer Management Division
CONUS          Continental United States
COTS           Commercial Off-The-Shelf


                                                23
CS        Computing Services
CSC       Computing Service Cell
CTO       Compliance Task Order
DAA       Designated Approving Authority
DBA       Database Administrator
DECC      Defense Enterprise Computing Center
DIACAP    DoD Information Assurance Certification and Accreditation Process
DII       Defense Information Infrastructure
DISA      Defense Information Systems Agency
DISN      Defense Information Systems Network
DoD       Department of Defense
FEMA      Federal Emergency Management Agency
FIPS      Federal Information Processing Standards
FSO       Field Security Office
GIG       Global Information Grid
GNOC      Global Network Operations Center
GNSC      Global Network Security Center
GOTS      Government Off-The-Shelf
GSA       General Services Administration
HBSS      Host Based Security System
IA        Information Assurance
IAM       Information Assurance Manager
IAO       Information Assurance Officer
IAR       Information Assurance Review
IAVM      Information Assurance Vulnerability Management
IAW       In Accordance With
IDP       Individual Development Plan
IDS       Intrusion Detection System
IMD       Infrastructure Management Division
IRM       Information Resource Management
ISC       Infrastructure Service Center
IT        Information Technology
JIDS      Joint Intrusion Detection System
JTD       Joint Table of Distribution
JTF-GNO   Joint Task Force-Global Network Operations
LNO       Liaison Officer
LOI       Letter of Instruction
MAC       Mission Assurance Category
MPS       Manpower, Personnel and Security
NIPRNET   Non-Classified Internet Protocol Router Network
NSA       National Security Agency
OMB       Office of Management and Budget
OOB       Out of Band
OST       Operational Support Team
PBX       Private Branch Exchange
PD        Position Description



                                        24
PDS       Protected Distribution System
PE        Processing Element
POA&M     Plan of Action and Milestone
RMD       Resource Management Division
SA        System Administrator
SF        Standard Form
SIPRNET   Secret Internet Protocol Router Network
SLA       Service Level Agreement
SM        Security Manager
SMC       System Management Center
SRR       Security Readiness Review
SSAA      System Security Authorization Agreement
STIG      Security Technical Implementation Guideline
UPS       Uninterrupted Power Supply
VMS       Vulnerability Management System




                                        25
26
Section III: Control Objectives, Control Techniques, and
             Tests of Operating Effectiveness




                           27
28
Security Program

No.   Control Objectives         Control Techniques                      Test of Operating Effectiveness          Results of Testing

 1    Controls provide reasonable assurance that the security program effectiveness is monitored and changes are made as needed.

1.1   Management periodically    SP5.1 Annual reviews are conducted to   We requested documentation of the        CSD IAM did not conduct annual
      assesses the               accommodate new security policy         annual review that accommodates new      reviews to accommodate new security
      appropriateness of         requirements, technology changes,       security policy requirements,            policy requirements and technology
      security policies and      etc. checked by the Information         technology changes, and related          changes.
      procedures.                Assurance Review (IAR) process.         changes. We reviewed the CSD IAM
                                                                         description of the annual review
                                                                         process.

                                 SP5.1 CS Operations Division conducts   We requested documentation of the CS     CS Operations Division did not
                                 annual reviews to assess the            Operations Division annual review that   conduct annual reviews to assess the
                                 appropriateness of the CS security      assesses the appropriateness of the CS   appropriateness of the CS security
                                 policies.                               security policies. We reviewed the CS    policies.
                                                                         Operations Division description of the
                                                                         annual review process.

                                 SP5.1 The FSO conducts annual           We reviewed the Technical Interchange    No relevant exceptions noted.
                                 Technical Interchange Meetings to       Meetings (TIMs) minutes the FSO
                                 assess the appropriateness of the       prepared to determine whether the FSO
                                 security policies.                      assessed the appropriateness of the
                                                                         security policies.
1.2   Management monitors        SP5.2 FSO performs SRRs as part of      We inspected SRRs that we obtained       No relevant exceptions noted.
      compliance with policies   the IA review and certification and     from the FSO to determine whether the
      and procedures.            accreditation process.                  FSO performed the SRRs.

                                 SP5.2 CSD IAM provides weekly           We inspected a sample of 14 weekly       No relevant exceptions noted.
                                 report on IAVMs to CSD Senior           Information Assurance Vulnerability
                                 Management.                             Management (IAVM) briefings to
                                                                         determine whether the CSD IAM
                                                                         provided weekly reports to CSD Senior
                                                                         Management.




                                                                         29
1.3   Corrective actions are     SP5.2 Corrective actions to findings are   We interviewed the SMCs, ISCs, and          No relevant exceptions noted.
      effectively implemented.   submitted and updated by the SA and        DECC Pacific IAM to determine
                                 monitored by the IAM at the local level    whether sites submitted, updated, and
                                 via Vulnerability Management System        monitored corrective actions through
                                 (VMS).                                     VMS.
                                 SP5.2 Corrective actions to findings are   We obtained from the DAA and                No relevant exceptions noted.
                                 monitored by the DAA and Certifying        Certifying Authority a description of the
                                 Authority at the headquarters level via    reports and process that the DAA and
                                 the Vulnerability Management System        Certifying Authority used to monitor
                                 (VMS).                                     findings and corrective actions through
                                                                            VMS.


Risk Assessment

No.   Control Objectives         Control Techniques                         Test of Operating Effectiveness             Results of Testing

 2    Controls provide reasonable assurance that risks are periodically assessed and appropriate steps are taken to mitigate risks.

2.1   Risk assessments are       SP5.2 Risk assessments are performed       We obtained and reviewed the risk           Of the SMCs, ISCs and DECC Pacific,
      performed according to     annually IAW DODI 5200.40 or               assessments for the SMCs, ISCs, and         one ISC did not have a signed risk
      current Federal and DOD    Interim DIACAP.                            DECC Pacific. We determined whether         assessment.
      requirements.                                                         the risk assessments were completed in
                                                                            accordance with DOD
                                                                            Instruction 5200.4 or Interim DIACAP.
                                 SP5.2 Risk mitigation is documented in     We obtained and reviewed the most           The risk assessment did not adequately
                                 the risk assessment.                       current risk assessments that the CSD       address risk mitigation for the three
                                                                            IAM prepared for the SMCs, ISCs, and        SMCs, two ISCs, and DECC Pacific.
                                                                            DECC Pacific. We verified whether
                                                                            the activities adequately addressed risk
                                                                            mitigation in their risk assessments.
                                 SP5.2 Enterprise risk assessments are      We requested the enterprise risk            CS did not prepare an enterprise risk
                                 prepared based on the site risk            assessment.                                 assessment.
                                 assessment results.




                                                                            30
Security Plans

No.   Control Objectives        Control Techniques                         Test of Operating Effectiveness            Results of Testing
      Controls provide reasonable assurance that site security plans are in place, prepared, documented, and approved in
 3
      accordance with Federal and DoD requirements, and is current.
3.1   Site security plans are   SP2.1 Updates (as required) are located    We obtained the most recent site           No relevant exceptions noted.
      documented.               at the sites.                              security plans from the SMCs, ISCs,
                                                                           and DECC Pacific.
                                SP2.1 The security plan is documented      We obtained the most recent security       One SMC did not adequately address
                                and addresses topics prescribed in OMB     plans from the SMCs, ISCs, and DECC        the topics prescribed in
                                Circular A-130 and is on file at the       Pacific. We reviewed the site security     OMB Circular A-130.
                                DAA.                                       plans to determine whether topics
                                                                           prescribed in OMB Circular A-130
                                                                           were adequately addressed.

                                                                           We obtained the most recent SSAA           The DAA did not have one SMC
                                                                           packets from the DAA to determine          security plan on file.
                                                                           whether these were the same security
                                                                           plans we obtained from the SMCs,
                                                                           ISCs, and DECC Pacific.


3.2   Site security plans are   SP2.1 The security plan for all sites is   We obtained the most recent site           No relevant exceptions noted.
      approved.                 signed by the senior official on site.     security plans from the SMCs, ISCs,
                                                                           and DECC Pacific to determine
                                                                           whether the senior site official
                                                                           approved the security plan.

3.3   Site security plans are   SP2.2 The security plan is reviewed        We interviewed the CSD IAM to              No relevant exceptions noted.
      current.                  annually and is updated as required.       understand the security plan review
                                                                           process. We tested whether a security
                                                                           plan for each site was included with the
                                                                           SSAA and included on file at the DAA.




                                                                           31
                                                                          We obtained and reviewed the most
                                                                          recent security plan maintained at
                                                                          SMCs, ISCs, and DECC Pacific.

                                                                          We determined whether the security
                                                                          plans we obtained from the DAA were
                                                                          the same security plans maintained at
                                                                          SMCs, ISCs, and DECC Pacific.

Security Management

No.   Control Objectives       Control Techniques                         Test of Operating Effectiveness              Results of Testing
      Controls provide reasonable assurance that a security management structure is established and security responsibilities are
      clearly assigned.

      Design Weakness:

      (a) DISA Computing Services did not have control procedures in place to ensure that security responsibilities are clearly assigned at
      all levels. Specifically, control procedures are needed to ensure the DISA Computing Services Enterprise Security Roles and
 4
      Responsibilities Concept of Operations defines the responsibilities of security officials at all levels in CSD.

      (b) DISA did not have control procedures in place to ensure security awareness training completion is recorded and maintained in the
      Defense On-Line Training System (DOTS). Specifically, security awareness training encompasses two types of training-Traditional
      and Information Assurance Awareness, however, records for all types of training are not recorded in DOTS.


4.1   A security management    SP3.1 The CSD Security Management          We inspected the DISA Computing              Refer above to item (a) of the design
      structure has been       CONOPS defines the responsibilities of     Services Enterprise Security Roles and       weakness.
      established.             security officials at all levels in CSD.   Responsibilities Concept of Operations
                                                                          to determine whether it defined the          DISA CS Enterprise Security Roles
                                                                          responsibilities of security officials for   and Responsibilities Concept of
                                                                          all levels in CSD.                           Operations did not define the SMC,
                                                                                                                       ISC, and DECC Pacific IAO
                                                                                                                       responsibilities.




                                                                          32
4.2   Information security           SP3.2 The roles and responsibilities are   We reviewed the universe of 153 IAM,         Refer above to item (a) of the design
      responsibilities are clearly   outlined in the CSD Security               IAO, and SM appointment orders               weakness.
      assigned.                      management CONOPS. The IAM,                obtained from the SMCs, ISCs, and
                                     IAO, and SM are assigned in their          DECC Pacific to determine whether the        Of 13 SM appointment orders, 9 were
                                     appointment orders.                        roles and responsibilities outlined in the   not complete at three SMCs, two ISCs,
                                                                                DISA Computing Services Enterprise           and DECC Pacific.
                                                                                Security Roles and Responsibilities
                                                                                Concept of Operations were assigned in       Of 13 IAM appointment orders,
                                                                                the appointment orders.                      12 were not complete at three SMCs,
                                                                                                                             three ISCs, and DECC Pacific

                                                                                                                             Of 127 IAO appointment orders,
                                                                                                                             127 did not have defined roles and
                                                                                                                             responsibilities at four SMCs, three
                                                                                                                             ISCs, and DECC Pacific.
4.3   CS personnel are aware of      SP3.3 Refresher security awareness         We inspected a sample of 385 DISA            Refer above to item (b) of the design
      security policies.             training completion is recorded and        personnel refresher information-             weakness.
                                     maintained in DOTS.                        assurance awareness training records
                                                                                from SMCs, ISCs, DECC Pacific,               Of 385 DISA personnel, 182 did not
                                                                                MPS, and CIO to determine whether            have information-assurance awareness
                                                                                DISA recorded and maintained training        training records in DOTS at three
                                                                                records in DOTS.                             SMCs, two ISCs, MPS, and CIO.

                                                                                                                             Two SMCs and one ISC did not record
                                                                                                                             and maintain information-assurance
                                                                                                                             awareness training completion in
                                                                                                                             DOTS.
                                     SP3.3 CS personnel are required to take    We inspected a sample of 344 CS              Of 344 CS personnel DD Forms 2875,
                                     initial security awareness training        personnel DD Forms 2875 at the               5 did not have the information
                                     before gaining access to any system.       SMCs, ISCs, and DECC Pacific to              assurance section completed at three
                                                                                determine whether personnel took             SMCs and one ISC.
                                                                                initial information assurance awareness
                                                                                training before gaining access to any
                                                                                system.




                                                                                33
                                    SP3.3 CS personnel are required to take    We inspected a sample of 344 CS           Of 344 CS personnel information-
                                    annual refresher security awareness        personnel information-assurance           assurance training records, one SMC
                                    training.                                  training records at the SMCs, ISCs, and   and one ISC did not maintain
                                                                               DECC Pacific to determine whether         6 training records.
                                                                               personnel completed annual security
                                                                               awareness training.


Personnel

No.   Control Objectives            Control Techniques                         Test of Operating Effectiveness           Results of Testing

 5    Controls provide reasonable assurance that effective personnel policies have been implemented.

5.1   Employee (Government          SP4.1 Security requirements for            We inspected a sample of 39 contracts     No relevant exceptions noted.
      and contractor)               contractor employees are included in       the Defense Information Technology
      background                    the contract requirements. Personnel       Contracting Organization had issued to
      investigations, hiring,       security compliance is monitored by CS     determine whether security
      transferring, and             Security Managers.                         requirements were included.
      termination policies
      address security and are in                                              We verified with CS Security Managers     Of a sample of 255 contract
      compliance with DODI                                                     that documentation for a sample of        employees, 2 employees did not have
      8500.2.                                                                  255 contractor employees have current     current security clearances.
                                                                               and valid security clearances.
                                    SP4.1 Personnel security checks are        We inspected a sample of 291 security     Of 291 security background
                                    conducted to determine that there exists   background investigations for             investigations for Government
                                    a valid and current personnel security     Government employees at SMCs, ISCs,       employees, 2 were not current.
                                    investigation for each Government          and DECC Pacific to determine
                                    employee at the site based on the          whether the investigations were valid
                                    individual’s duties and tasks.             and current.
                                    SP4.1 Termination of contractor            We inspected documentation for a          No relevant exceptions noted.
                                    employees requires revoking of all         sample of 120 terminated contractor
                                    access to DISA applications and            employees at the SMCs, ISCs, and
                                    systems.                                   DECC Pacific to determine whether
                                                                               each employee’s system access was
                                                                               revoked.




                                                                               34
SP4.1 Government employees                 We inspected the universe of seven         No relevant exceptions noted.
transferring to organizations within       Government employees who had
DISA but outside CS requires revoking      transferred to organizations within
of all access to CS applications and       DISA but outside CS to determine
systems.                                   whether access to the CS system was
                                           revoked.
SP4.1 Personnel security checks are        We interviewed MPS to understand           Of 291 Government employees, 2 did
conducted to determine that a valid and    how MPS conducts personnel security        not have a current personnel security
current personnel security investigation   investigations for each potential          investigation.
has been conducted for each potential      employee based on the individual’s
employee based on the individual’s         duties and tasks. We inspected a
duties and tasks.                          sample of 291 Government-employee
                                           personnel security investigations to
                                           determine whether they were current
                                           and valid and were based on the
                                           individual’s duties and tasks.
SP4.1 Termination of Government            We inspected DISA Form 553 for a           Of 33 Government employees, 3 did
employees requires debriefing and          sample of 33 Government employees at       not have a DISA Form 553 maintained.
revoking of all access to DISA             the SMCs, ISCs, and DECC Pacific to
applications and systems. Termination      determine whether a signed debriefing      Of 33 Government employees, 1 did
debriefing (DISA Form 553) must be         (DISA Form 553) was on file.               not have a completed DISA Form 553.
signed and maintained by the site
Security Manager.                          We inspected documentation for a           Of 33 Government employees, 1 did
                                           sample of 33 Government employees at       not have an out-processing checklist
                                           the SMCs, ISCs, and DECC Pacific to        maintained.
                                           determine whether termination included
                                           debriefing and revoking of all access to   Of 33 Government employees, 1 did
                                           DISA applications and systems.             not have a completed out-processing
                                                                                      checklist.

                                                                                      Of 33 Government employees, 1 did
                                                                                      not have a Non-Disclosure statement
                                                                                      (debriefing section) maintained.

                                                                                      Of 33 Government employees, 1 did
                                                                                      not have a completed Non-Disclosure
                                                                                      statement (debriefing section).




                                           35
                                  SP4.1 Government employees                 We inspected a sample of                  Of 33 Government employees, 1 did
                                  transferring to organizations outside      33 Government employees at                not have an out-processing checklist
                                  DISA requires revoking of all access to    SMCs, ISCs, and DECC Pacific to           maintained.
                                  DISA applications and systems.             determine whether termination of
                                                                             Government employees included a           Of 33 Government employees, 1 did
                                                                             debrief and revoking all access to DISA   not have a completed out-processing
                                                                             applications and systems.                 checklist.


                                  SP4.1 The CS Security Handbook             We inspected the CS Security              No relevant exceptions noted.
                                  prescribes guidelines addressing           Handbook to determine whether it
                                  position sensitivity designations for      addressed position sensitivity for
                                  military and civilian employees.           military and civilian employees.

5.2   Job descriptions for        SD1.2 All civilian positions have          We inspected a sample of 287              No relevant exceptions noted.
      employees (Government       position descriptions.                     personnel files for civilian positions
      and contractor) have been                                              from SMCs, ISCs, and DECC Pacific to
      documented and                                                         determine whether the position
      employees understand                                                   descriptions existed.
      their duties and
                                  SD1.2 All contractor job requirements      We inspected a sample of 39 contracts     No relevant exceptions noted.
      responsibilities.
                                  are documented within the applicable       the Defense Information Technology
                                  contract.                                  Contracting Organization issued to
                                                                             determine whether the documented
                                                                             contractor job requirements were
                                                                             included in the contracts.
                                  SD1.3 Supervisors at all levels develop    We inspected a sample of                  No relevant exceptions noted.
                                  and maintain a performance plan (Form      287 employee performance plans at
                                  208) for each individual and ensure that   the SMCs, ISCs, and DECC Pacific to
                                  the plan requires the performance based    determine whether the plans reflected
                                  on the position description.               the relevant position description.




                                                                             36
                                     SD1.3 Supervisors have access to            We interviewed supervisors for a        No relevant exceptions noted.
                                     position descriptions, which identify the   sample of 226 employees at the SMCs,
                                     task and functions required by the          ISCs, and DECC Pacific to determine
                                     position.                                   whether they were aware of the tasks
                                                                                 and functions required of the
                                                                                 employees. We compared their
                                                                                 answers to the relevant position
                                                                                 descriptions for appropriateness.
                                     SD2.1 CS management complies with           We identified personnel requirements    Of 287 employees, 4 did not have
                                     DISAI 220-15-55 to ensure compliance        in DISAI 220-15-55 and inspected a      mid-year reviews on their DISA Form
                                     with job descriptions and duties.           sample of 287 employees performance     208 Performance Plan.
                                                                                 plans to determine whether the sites
                                                                                 complied with DISAI 220-15-55.
                                     SD3.1 Local written instructions may        We interviewed supervisors on work      No relevant exceptions noted.
                                     be followed for the performance of          performance for a sample of
                                     work.                                       226 Government employees at the
                                                                                 SMCs, ISCs, and DECC Pacific to
                                                                                 determine whether work performance
                                                                                 complied with DISAI 220-15-55.
5.3   Employees (Government          SP4.2 SA certification requirements are     We inspected SA certification           Of 285 SAs, 1 did not have the SA
      and contractor) are            tracked by MPS.                             documentation the sites tracked for a   certification signed.
      adequately trained and                                                     sample of 285 SAs at SMCs, ISCs, and
      possess the required skills.                                               DECC Pacific to determine the           Of 285 SA certifications, 1 was out of
                                                                                 appropriateness and completeness of     the 18-month recertification scope.
                                                                                 site data.
                                                                                                                         Of 285 SAs, 4 did not complete the
                                                                                                                         final SA certification test.
                                     SP4.2 Training requirements for IAM         We interviewed MPS staff to determine   No relevant exceptions noted.
                                     and users are established by DoD and        whether DoD and DISA established
                                     DISA policies.                              training requirements for IAM and
                                                                                 users in their policies.
                                     SP4.2 Completion of annual                  We interviewed MPS staff and CSD        No relevant exceptions noted.
                                     Information Awareness Training is           IAM to determine the process for
                                     tracked by MPS and CSD IAM.                 tracking annual Information Awareness
                                                                                 Training.




                                                                                 37
                                 SP4.2 SA certification requirements are      We interviewed CIO staff for DoD and    No relevant exceptions noted.
                                 established by DISA policies and             DISA policies used to establish SA
                                 maintained by the CIO.                       certification requirements.

5.4   Confidentiality or Non-    SP4.1 A Non-Disclosure statement (SF         We inspected a sample of                Of 247 Government employees, 2 did
      Disclosures agreements     312) is required for all Government          247 Non-Disclosure statements           not sign the Non-Disclosure statement.
      are documented.            employees.                                   for Government employees at the
                                                                              SMCs, ISCs, and DECC Pacific to         Of 247 Government employees, 3 did
                                                                              determine whether employees signed      not have a Non-Disclosure statement
                                                                              the statements.                         on file.
                                 SP4.1 A Non-Disclosure statement (SF         We inspected a sample of                Of 255 contractor employees, 1 had an
                                 312) is required for all contractors.        255 Non-Disclosure statements           incomplete Non-Disclosure statement
                                                                              for contractor employees at the         at one SMC.
                                                                              SMCs, ISCs, and DECC Pacific to
                                                                              determine whether employees signed
                                                                              the statements.
5.5   Incompatible duties have   SD1.1 Service Level Agreements also          We obtained and reviewed the CSD        No relevant exceptions noted.
      been identified and        describe the roles and responsibilities of   Basic Service Level Agreement to
      policies implemented to    CS in maintaining the customer               determine whether CS roles and
      segregate these duties.    platforms.                                   responsibilities for maintaining
                                                                              customer platforms were included.
                                 SD1.1 CS Security Handbook describes         We inspected the CSD Operations         No relevant exceptions noted.
                                 the segregation of duties of CS security     Policy Letter CSD 06-15, “Segregation
                                 personnel. CSD OPS Policy 06-15              of Duties,” and the CS Security
                                 describes the segregation of duties of       Handbook for segregation of
                                 CS personnel not outlined in the CS          incompatible duties.
                                 Security Handbook.




                                                                              38
Resource Classification

No.   Control Objectives             Control Techniques                           Test of Operating Effectiveness            Results of Testing
      Controls provide reasonable assurance that information resources are classified according to their Mission Assurance
 6
      Category (MAC) and Confidentiality Level (CL).
6.1   Customers have                 AC1.2 CS customers communicate               We analyzed FY 2007 and FY 2008            No relevant exceptions noted.
      communicated the               Mission Assurance Criticality (MAC)          SLAs to determine whether they :
      classification of their        levels to CS for their applications          • were approved and signed by both
      applications to CS.            during the initial business proposal and     CSD and Customer Representative,
                                     captured in the Service Requirements         • identified the MAC and sensitivity
                                     Form (SRF).                                  level, and
                                                                                  • identified how disposition of data
                                                                                  should be handled.

6.2   Customer resource              AC1.2 In accordance with DODI                We analyzed FY 2007 and FY 2008            No relevant exceptions noted.
      classifications and related    8500.2 and DODD 8500.1 system                SLAs to determine whether they
      criteria have been             owner/customer establishes MAC               identified the MAC and sensitivity
      formally established.          level in the SLA based upon their            level.
                                     assessment of the critical nature of their
                                     application or system.
6.3   All DISA owned assets          AC1.1 CS has defined the information         We inspected the site’s current SSAA.      No relevant exceptions noted.
      are classified according to    resources criticality IAW the DODI           We ran an AS01 Report from the
      criticality and sensitivity.   8500.2 and documented in the site            Vulnerability Management System at
                                     SSAA or VMS.                                 the SMCs, ISCs, and DECC Pacific,
                                                                                  and we selected a sample of 40 assets
                                                                                  that were both located at and owned by
                                                                                  the site. We interviewed the IAM to
                                                                                  determine how the IAM was notified of
                                                                                  any new assets or changes in criticality
                                                                                  of assets and how the IAM annotated
                                                                                  the criticality.




                                                                                  39
                                   AC1.2 IAM has reviewed and noted the       We inspected the site’s current SSAA.      Of 40 assets, 1 did not have the correct
                                   criticality of the DISA owned resources.   We ran an AS01 Report from the             Confidentiality Level at one ISC.
                                                                              Vulnerability Management System at
                                                                              the SMCs, ISCs, and DECC Pacific,
                                                                              and we selected a sample of 40 assets
                                                                              that were both located at and owned by
                                                                              the site. We interviewed the IAM to
                                                                              determine how the IAM was notified of
                                                                              any new assets or changes in criticality
                                                                              of assets and how the IAM annotated
                                                                              the criticality.
6.4   Service Level Agreement      AC2.3 SLAs are current and are             We interviewed the site IAM, technical     No relevant exceptions noted.
      (SLA) management and         available in the Knowledge                 support personnel, or appropriate
      the disposition of data      Management System database.                personnel on whether, and how, they
      requirements are                                                        received notification of new SLA
      identified.                                                             requirements and whether they used the
                                                                              Knowledge Management System to
                                                                              receive new SLA requirements
                                   AC3.7 All requirements (if applicable)     We interviewed CCC personnel to            No relevant exceptions noted.
                                   for communications secured by Type I       determine whether CS used encryption
                                   or Type III crypto devices are             tools. We requested from CCC a list of
                                   documented in the applicable SLA.          programs that require crypto or
                                                                              encryption (unclassified). We selected
                                                                              a sample of 10 programs and reviewed
                                                                              the applicable SLAs to determine
                                                                              whether the requirements were
                                                                              identified.
6.5   Logical controls over data   AC3.7 If required by the customer in       We interviewed CCC personnel to            No relevant exceptions noted.
      files and software           the SLA and outlined in the Terms and      determine whether CS used encryption
      programs.                    Condition (T&C) document, encryption       tools. We requested from CCC a list of
                                   tools such as Virtual Private Network,     programs that require crypto or
                                   Secure Socket Layer, Secure Shell, and     encryption (unclassified). We selected
                                   Public Key Infrastructure are used IAW     a sample of 10 programs and reviewed
                                   the current DOD STIGs where the data       the applicable SLAs to determine
                                   or the transmission of data needs to be    whether the requirements were
                                   protected.                                 identified.




                                                                              40
6.6   Correct use of encryption   AC3.7 If required by the customer, all    We interviewed CCC personnel on the       No relevant exceptions noted.
      devices.                    requirements for encryption are           use of encryption tools. We requested
                                  documented in the applicable SLA.         from CCC a list of programs that
                                                                            require crypto or encryption
                                                                            (unclassified). We selected a sample of
                                                                            10 programs and reviewed the
                                                                            applicable SLAs to determine whether
                                                                            the requirements were identified.
                                  AC3.7 If required by the customer in      We interviewed CCC personnel on the       No relevant exceptions noted.
                                  the SLA, and included in the T&C          use of encryption tools. We requested
                                  document, the DOD encryption policy       from CCC a list of programs that
                                  is applied in accordance with FIPS 140-   require crypto or encryption
                                  2.                                        (unclassified). We selected a sample of
                                                                            10 programs and reviewed the
                                                                            applicable SLAs to determine whether
                                                                            the requirements were identified.




                                                                            41
Account Management

No.   Control Objectives           Control Techniques                         Test of Operating Effectiveness          Results of Testing

 7    Controls provide reasonable assurance that user account management procedures are implemented and effective.

7.1   DISA managed assets          AC2.1 Each privileged user                 We inspected system-generated            Of 10 mainframes tested, 6 had users
      have identified authorized   identification issued is evidenced by a    documentation for a sample of            who were granted access to operating
      users and their authorized   DD Form 2875 (or its predecessor           10 mainframes for:                       data sets and/or system resources and
      access rights.               DISA Form 41) or an equivalent local            • System Programmers                were not identified as privileged users.
                                   form that has incorporated all the              • Security Administrators
                                   requirements of the DD Form                     • Auditors
                                   2875. DD Form 2875, System Access               • Production Control/Scheduling
                                   Authorization Request, requires                 • Personnel
                                   approval from the user’s supervisor, and        • Operations Personnel
                                   validation of user personnel security           • DASD Management Personnel
                                   investigation based on access requested.        • Storage Management Personnel
                                                                              to determine whether privileged users
                                                                              were identified.

                                                                              Based on the list of privileged users    Of 288 privileged-user DD Forms
                                                                              maintained by the IAM/IAO, we            2875 tested, 74 were not properly
                                                                              selected a sample of 288 privileged      completed at four SMCs and three
                                                                              users and obtained their DD Forms        ISCs.
                                                                              2875s to verify that the DD Forms 2875
                                                                              were properly completed.                 Of the 288 privileged-user DD Forms
                                                                                                                       2875, 1 was not on file at one SMC.
                                   AC2.1 IAW DODI 8500.2 and                  We used the assets tested in Control     One ISC tested did not sufficiently
                                   appropriate DOD STIGs, the site            Objective 6.3 to generate a list of      track privileged users of
                                   IAM/IAO maintains a list of all            privileged users of those assets to      Windows/Unix systems.
                                   approved privileged users (privilege       determine whether all privileged users
                                   user accounts created by CS SAs) for       listed were located on the list of
                                   operating systems, networks, databases,    privileged users maintained by the
                                   and web administrators.                    IAM/IAO.




                                                                              42
                                AC2.1 The DODI 8500.2, as                  We reviewed and compared local            No relevant exceptions noted.
                                supplemented by CS Policy 06-05 and        policies regarding account management
                                CSD Policy 06-12, details the process      to DoD and CSD account management
                                for granting access to system resources.   policies.

7.2   IAM/IAO and/or SA         AC2.1 Periodic revalidation of DISA        We interviewed the IAM, IAO, and SM       Of 243 tested personnel, 4 were
      periodically review       managed systems, IAW applicable            at the SMCs, ISCs, and DECC Pacific       authorized users but were identified as
      authorization lists to    DOD STIGs and CS Policy 06-05, is          to understand the revalidation process    privileged users at one SMC.
      determine                 conducted annually by the local            for privileged accounts or privileged
      appropriateness.          IAM/IAO and/or SA to identify              user accesses.                            Of 243 privileged users, 4 were not
                                privileged accounts and privileged user                                              revalidated annually at one SMC.
                                accesses that are no longer needed.        We inspected a sample of
                                (Customer rental space excluded)           243 privileged users DD Forms 2875        Of 243 privileged-user
                                                                           at three SMCs, three ISCs, and            DD Forms 2875, 11 were not updated
                                                                           DECC Pacific to determine the             to indicate revalidation at one ISC.
                                                                           frequency of revalidation and whether
                                                                           the revalidation process is in            Of 45 asset sheets, 2 did not have a
                                                                           accordance with applicable DoD STIGs      completed privileged account
                                                                           and CS Policy 06-05.                      revalidation at one SMC.

                                                                           We inspected revalidation evidence in a
                                                                           sample of 45 privileged accounts' at
                                                                           one SMC to determine the frequency of
                                                                           revalidation and whether the
                                                                           revalidation process is in accordance
                                                                           with applicable DoD STIGs and
                                                                           CS Policy 06-05.
7.3   Emergency and temporary   AC2.2 Emergency and temporary              We inspected system-generated             Of 10 mainframes, 1 had a test ID in
      access is controlled.     access authorizations are:                 documentation for a sample of             an active and not suspended state.
                                • documented and maintained on file,       10 mainframes to determine whether
                                • approved by appropriate management,      management controlled emergency and
                                • communicated to the IAM, and             temporary access authorizations..
                                • terminated after a predetermined
                                period on a case by case basis.            We interviewed CS personnel at the        No relevant exceptions noted.
                                                                           SMCs, ISCs, and DECC Pacific to
                                                                           determine whether emergency changes




                                                                           43
                                                                            were made. For the one SMC that had
                                                                            emergency changes, we inspected a
                                                                            sample of two emergency and
                                                                            temporary user access requests to
                                                                            determine whether authorizations were:
                                                                            • documented and maintained on file,
                                                                            • approved by appropriate management,
                                                                            • securely communicated to the IAM,
                                                                            and
                                                                            • terminated after a predetermined
                                                                            period on a case-by-case basis.

Physical Security

No.   Control Objectives        Control Techniques                          Test of Operating Effectiveness           Results of Testing

 8    Controls provide reasonable assurance that adequate physical controls have been implemented.

8.1   Perimeter (Base Level).   AC3.1 Physical safeguard procedures         We observed the physical inner and         No relevant exceptions noted.
                                include:                                    outer perimeters of the CS facility at
                                • controlled access and controlled          the SMCs, ISCs, and DECC Pacific to
                                perimeters for CS facilities located on     determine whether:
                                military or GSA installations;              • individuals attempting to access the
                                • verification of DoD identification,       CS facility were required to present
                                such as a Common Access Card or             valid DoD identification;
                                DISA badge;                                 • perimeter security was in place to
                                • enclosed perimeter, by a fence that       control vehicle and pedestrian access;
                                controls vehicle and pedestrian access,     • access to administrative areas was
                                for CS facilities not located on military   controlled by a guard, mechanical
                                or GSA installation;                        cipher lock, or automated access
                                • IAW local Base Support Agreement,         control system; and
                                if required, routine patrol and random      • routine patrol and random door checks
                                door checks are performed by the local      were performed by the military base,
                                military, DoD, or GSA guards; and           DoD, or GSA guards in accordance
                                • access to the administrative areas is     with applicable base support
                                controlled by guard, mechanical cipher,     agreements.




                                                                            44
                                  or automated access
                                  control system.



8.2   Building, administration,   AC3.1 Computer Rooms not located at         We interviewed local security              No relevant exceptions noted.
      and computer facility.      a DISA facility will follow the             personnel to determine whether the
                                  requirements of the hosting site.           three DISA DECCs not located at
                                                                              DISA facilities followed the host sites’
                                                                              requirements.
                                  AC3.1 The area of the computer facility     We observed the computer facility          No relevant exceptions noted.
                                  that contains unclassified                  areas that contained unclassified
                                  equipment/information is in compliance      equipment to determine whether the
                                  with the requirements outlined in DOD       areas complied with the requirements
                                  5200.8 R, specifically:                     outlined in DoD 5200.8R, specifically
                                  • Electronic Security System                by having:
                                  • Entry and Circulation Control             • an electronic security system,
                                  • Barriers                                  • entry and circulation control,
                                  • Security Patrols/Designated Response      • barriers, and
                                  Force.                                      • security patrols/designated response
                                                                              force.

                                  AC3.1 Computer facilities have at least     We observed access to the computer         No relevant exceptions noted.
                                  two levels of physical security controls.   facilities for the SMCs, ISCs, and
                                                                              DECC Pacific to determine whether
                                  • Access to the computer facility           such access required at least two levels
                                  requires positive identification of the     of physical security controls through
                                  employee. Through the use of                the use of something they have (for
                                  something they have (e.g., proxy card,      example, a proxy card or DoD
                                  DOD identification card, etc.),             identification card); something they
                                  something they know (e.g., pin number,      knew (for example, a personal
                                  etc.) and /or something they are (e.g.,     identification number); or something
                                  biometrics)                                 they were, (for example, biometrics).

                                  • Employees must wear their picture         We observed CS employees at the
                                  identification cards above the waist.       SMCs, ISCs, and DECC Pacific to




                                                                              45
                                 Employees not in compliance will be         determine whether picture
                                 challenged.                                 identification cards were worn above
                                                                             the waist. We observed whether
                                                                             security or others challenged CS
                                                                             employees who did not comply.
8.3   Visitors are controlled.   AC3.1 All CS site SMs must maintain         We inspected authorized access lists for    No relevant exceptions noted.
                                 an authorized access list to the CS         a sample of employees at the SMCs,
                                 facility.                                   ISCs, and DECC Pacific to determine
                                                                             whether facility access was appropriate.

                                 AC3.1 Personnel who do not have the         We interviewed the site SM at the           No relevant exceptions noted.
                                 appropriate security investigation or       SMCs, ISCs, and DECC Pacific to
                                 clearance will be escorted at all times     understand the local site-specific badge
                                 while in the computing facility.            color codes and the process for
                                                                             escorting visitors.

                                                                             We observed visitors with badges who
                                                                             required escort to determine whether
                                                                             such visitors were escorted at all times.
                                 AC3.2 Visitors to the computing             We interviewed the local security           No relevant exceptions noted.
                                 facilities that are not on the authorized   officer and security guards for the
                                 access list must be validated by the        SMCs, ISCs, and DECC Pacific about
                                 local security officer, and signed in and   how they handled visitors who were not
                                 out of the facility and will be escorted    on the authorized access list.
                                 as required.
                                                                             We observed security officers and
                                                                             visitors at the SMCs, ISCs, and DECC
                                                                             Pacific to determine whether local
                                                                             security officers validated the visitors.
8.4   Traditional Security       AC3.3 As part of the site certification     We interviewed FSO personnel about          No relevant exceptions noted.
      Review.                    and accreditation process, a periodic       the system classification levels and how
                                 Traditional Security review is              they affected the traditional security
                                 conducted by the Certifying Authority       review process and schedule.
                                 at a minimum every 3 years or more
                                 frequently based on the classification      We inspected the traditional security
                                 levels processed by the site.               review schedule the FSO provided to




                                                                             46
                                                                            determine whether the FSO performed
                                                                            the reviews in accordance with the
                                                                            system classification levels.

                                                                            We inspected DITSCAP documentation
                                                                            and the traditional security review for
                                                                            the SMCs, ISCs, and DECC Pacific to
                                                                            determine the date of the last traditional
                                                                            security review.

Logical Access Controls

No.   Control Objectives          Control Techniques                        Test of Operating Effectiveness              Results of Testing
      Controls provide reasonable assurance that adequate logical access controls have been implemented.

      Design Weakness:
 9
      CS does not have control procedures in place to ensure that adequate logical access controls have been implemented. Specifically,
      control procedures are needed to ensure the following: (a) password configurations are in compliance with DoD STIGs and (b) all
      access paths have been identified and controls implemented to prevent and detect access.
9.1   Passwords, tokens, or       AC3.2 Password configuration              We inspected system-generated                Refer above to item (a) of the design
      other devices are used to   requirements, at the system level, will   documentation for a sample of                weakness. Password configurations
      identify and authenticate   be in compliance with appropriate         10 mainframes, 34 UNIX, 56 Windows,          were not set in accordance with the
      users.                      current DOD STIG or JTF-GNO policy.       and 42 network devices the SMCs and          appropriate DoD STIG or JTF-GNO
                                                                            ISCs managed to determine whether the        policy for 2 of 10 mainframes, 2 of
                                                                            password configuration settings              34 UNIX, 6 of 56 Windows, and 2 of
                                                                            complied with the appropriate                42 network devices tested.
                                                                            DoD STIG or JTF-GNO policy.

                                  AC3.2 Vendor-supplied default logons      We inspected system-generated                No relevant exceptions noted.
                                  and passwords will be removed,            documentation for a sample of
                                  changed or disabled in accordance with    10 mainframes, 34 UNIX, 56 Windows,
                                  appropriate current DOD STIG or           and 42 network devices the SMCs and
                                  JTF-GNO policy.                           ISCs managed to determine whether the
                                                                            vendor-supplied default logons and




                                                                            47
                                                                            passwords were removed, changed,
                                                                            or disabled in accordance with the
                                                                            appropriate DoD STIG or JTF-GNO
                                                                            policy.
                                  AC3.2 Passwords are checked for           We inspected the configuration of         Of 34 UNIX servers tested, 2 did not
                                  compliance to current DOD STIG or         password cracking software for a          have passwords checked using an
                                  JTF-GNO policy as part of DISA            sample of 10 mainframes, 34 UNIX,         approved utility.
                                  approved scanning tool, password          56 Windows, and 42 network devices
                                  cracking utilities, or SRRs.              the SMCs and ISCs managed to
                                                                            determine whether management
                                                                            checked passwords for compliance with
                                                                            current DoD STIG or JTF-GNO policy.
9.2   Sanitation of equipment     AC3.8 Sanitation of equipment and         We interviewed local security             No relevant exceptions noted.
      and media prior to          media prior to disposal or reuse are      personnel to determine whether the
      disposal or reuse.          performed in accordance with DoD          process of disposing equipment and
                                  Regulation 5200.1-R, CS Security          media that the SMCs, ISCs, and
                                  Handbook, CSD Policy 06-29, CSD           DECC Pacific followed complied with
                                  Policy 06-17 and the Assistant            DoD and local policies. We inspected
                                  Secretary of Defense (Command,            sanitized equipment logs for a sample
                                  Control, Communications, and              of 88 pieces of equipment and verified
                                  Intelligence) Memorandum,                 evidence of proper sanitization and
                                  "Disposition of Unclassified DoD          disposal.
                                  Computer Hard Drives," dated June 4,
                                  2001.

9.3   Access paths have been      AC3.4 Access paths are identified         We interviewed CCC personnel to           No relevant exceptions noted.
      identified and controls     within the communications topography      ensure they identified access paths and
      implemented to prevent or   for each CS site. The communication       showed the paths on network diagrams,
      detect access.              topography shows connections from         and to ensure controls were in place to
                                  the wide area network into the            prevent or detect access.
                                  perimeter point of presence down to the
                                  individual Internet Protocol addresses    We interviewed CCC personnel to
                                  of all devices within the enclave.        determine how and when they updated
                                                                            network diagrams.




                                                                            48
AC3.4 System software is configured in    We inspected system-generated             Refer above to item (b) of the design
accordance with the current DOD           documentation for a sample of             weakness. Of the samples tested,
STIG, Admin LAN CONOPS, and               10 mainframes, 34 UNIX, 56 Windows,       10 of 10 mainframes, 34 of 34 UNIX,
DISA DPL 06-10.                           and 42 network devices that the SMCs      55 of 56 Windows, and 15 of 42
                                          and ISCs managed. We determined           network devices were not configured
                                          whether the operating system software     in accordance with the current
                                          was configured in accordance with the     DoD STIG and CSD Policy.
                                          current DoD STIG and CSD Policy.
AC3.4 Network diagrams are developed      We interviewed CCC personnel to           No relevant exceptions noted.
and maintained to show access paths.      ensure they identified access paths and
                                          showed the paths on network diagrams,
                                          and to ensure controls were in place to
                                          prevent or detect access.

                                          We interviewed CCC personnel to
                                          determine how and when they updated
                                          network diagrams.
AC3.4 Operating system software is        We inspected system-generated             Refer above to item (b) of the design
configured IAW the current DOD STIG       documentation for a sample of             weakness. Of samples tested,
and CSD Policy.                           10 mainframes, 34 UNIX, 56 Windows,       10 of 10 mainframes, 34 of 34 UNIX,
                                          and 42 network devices managed by the     55 of 56 Windows, and 15 of 42
                                          SMCs and ISCs. We determined              network devices were not configured
                                          whether the operating system software     in accordance with the current
                                          was configured in accordance with the     DoD STIG and CSD Policy.
                                          current DoD STIG and CSD Policy.
AC3.4 Access to data files and software   We inspected system-generated             Of samples tested, 8 of 10 mainframes,
programs is configured IAW the current    documentation for a sample of 10          25 of 34 UNIX, 16 of 56 Windows,
DOD STIG and CSD Policy.                  mainframes, 34 UNIX, 56 Windows,          and 1 network device were not in
                                          and 42 network devices managed by the     accordance with DoD STIG and CSD
                                          SMCs and ISCs to determine whether        Policy.
                                          access to data files and software
                                          programs is configured in accordance
                                          with the current DoD STIG and CSD
                                          Policy.




                                          49
Networks and Telecommunications

No.    Control Objectives    Control Techniques                         Test of Operating Effectiveness         Results of Testing

 10    Controls provide reasonable assurance that Networks and telecommunications are secure.

10.1   Telecommunication     AC3.6 Dial-in telephone numbers are        We interviewed personnel at the SMCs,   No relevant exceptions noted.
       defense.              not published.                             ISCs, and DECC Pacific to determine
                                                                        who managed dial-up services, whether
                                                                        the services were centrally managed
                                                                        (permission for remote access) or at
                                                                        each location, and whether the
                                                                        telephone numbers were published.
                             AC3.6 Telecommunications access is         We interviewed CCC personnel to         No relevant exceptions noted.
                             controlled by the managing CCC for the     determine how they controlled and
                             network devices, to include firewall and   managed the networks. We identified
                             network IDSs, at all sites within          what controls were in place to ensure
                             continental United States for              that only access to the network or
                             unclassified wide area network. CCC        production network through the
                             personnel have access to those networks    out-of-band network.
                             through the out-of-band virtual private
                             network tunnel for all networks so
                             equipped.
10.2   Network defense.      AC3.4 Network access paths are             We inspected a sample of                Of 10 mainframes, 2 were not
                             configured to prevent circumvention of     10 mainframes and 42 network devices    configured in accordance with
                             security and unauthorized access in        to determine whether configurations     DoD STIG and CSD OPS Policy.
                             accordance with the current DOD            complied with current DoD STIGs and
                             STIGs and CSD OPS policy.                  CSD OPS policy.

                             AC3.4 Networking equipment is              We inspected a sample of 42 network     Of 42 network devices tested, 14 were
                             configured in accordance with the          devices to determine whether            not configured in accordance with
                             current DOD STIGs and CSD OPS              configurations complied with current    the current DoD STIG and CSD
                             policy.                                    DoD STIGs and CSD OPS policy.           OPS Policy.




                                                                        50
10.3   Remote and dial-up             AC3.4 Remote access is established in      We interviewed personnel at the SMCs,     No relevant exceptions noted.
       capabilities are controlled.   accordance with current DOD STIGs.         ISCs, and DECC Pacific to determine
                                                                                 how remote access was established.
                                                                                 We reviewed site policies and
                                                                                 procedures to determine whether
                                                                                 procedures complied with DoD STIGS.
10.4   Actual or attempted            AC3.5 Network intrusion detection          We inspected system-generated             Of samples tested, 22 of 23 UNIX
       unauthorized, unusual, or      systems are installed in accordance with   documentation for a sample of             and 11 of 32 Windows did not have
       sensitive network access       the DOD STIGs and monitor unusual          23 UNIX, 32 Windows, and 28 network       host-based intrusion detection systems
       is monitored.                  and/or inappropriate activity.             devices managed by the CCCs to            installed in accordance with the current
                                                                                 determine whether intrusion detection     DoD STIG.
                                                                                 systems were installed in accordance
                                                                                 with DoD STIGs.
                                      AC3.5 Procedures are in place for          We obtained and compared the local        No relevant exceptions noted
                                      monitoring, investigating, and reporting   policies from the SMCs, ISCs, and
                                      inappropriate or unusual activity. The     DECC Pacific to determine whether
                                      DOD STIG and CS Policy outlines            personnel complied with the CSD
                                      what activity is to be monitored for       network monitoring policy.
                                      inappropriate or unusual activities.
10.5   Suspicious network access      AC4.2 Suspicious access activity is        We interviewed personnel at the CCCs,     No relevant exceptions noted.
       activity is investigated and   investigated and appropriate action        SMCs, ISCs, and DECC Pacific to
       appropriate action is          taken in accordance with GS4 LOI           understand how they monitored
       taken.                         07-11and CS Policy 06-02.                  suspicious activity. We inspected
                                                                                 records for a sample of 104 suspicious
                                                                                 activities reported from April 1, 2007,
                                                                                 to month date, year, to verify that
                                                                                 personnel followed the appropriate
                                                                                 policies when reporting the suspicious
                                                                                 activities.




                                                                                 51
Access Monitoring

No.    Control Objectives        Control Techniques                    Test of Operating Effectiveness             Results of Testing

       Controls provide reasonable assurance that access is monitored, suspected security violations are investigated, and
       appropriate remedial action is taken.

       Design Weakness:
 11
       CS does not have control procedures in place to ensure that access is monitored, suspected security violations are investigated, and
       appropriate remedial action is taken. Specifically, control procedures are needed to ensure that audit trails are being maintained and
       reviewed.

11.1   Audit trails are          AC3.5 System auditing review is in    We interviewed DECC personnel to            Three SMCs and one ISC did not
       maintained.               accordance with DOD STIGs. (Please    determine:                                  review audit logs based on DoD
                                 refer to CSD Management Letter)       • how they configured audit trails to       requirements.
                                                                       capture data and which data;
                                                                       • the frequency of backups, the location
                                                                       of the alternate media, and the retention
                                                                       timeframe by technology; and,
                                                                       • how they conducted the review of the
                                                                       audit trails.

                                                                       We interviewed SAs and IAOs for a           Of samples tested, 4 of 34 UNIX and
                                                                       sample of 10 mainframes, 34 UNIX,           2 of 56 Windows systems did not have
                                                                       56 Windows, and 42 network devices          evidence that confirmed personnel
                                                                       the SMCs and ISCs managed to                reviewed audit trails and system log
                                                                       determine whether the auditing review       files in accordance with DoD STIGs.
                                                                       was in accordance with DoD STIGs.

                                 AC3.5 System auditing is enabled in   We interviewed SAs and IAOs for a           Refer to the design weakness above.
                                 accordance with DOD STIGs. (Please    sample of 10 mainframes, 34 UNIX,           Of samples tested, 7 of 10 mainframes,
                                 refer to CSD Management Letter)       56 Windows, and 42 network devices          4 of 34 UNIX, and 2 of 56 Windows
                                                                       the SMCs and ISCs managed to                servers were not configured to audit in
                                                                       determine whether system auditing was       accordance with DoD STIGs.




                                                                       52
                                                                              enabled in accordance with
                                                                              DoD STIGs.
                                 AC4.1 Auditing is conducted in               We interviewed SAs and IAOs for a        Of 10 mainframes, 7 did not have
                                 accordance with DOD STIGs. (Please           sample of 10 mainframes, 34 UNIX,        auditing conducted in accordance with
                                 refer to CSD Management Letter)              56 Windows, and 42 network devices       DoD STIGs.
                                                                              the SMCs and ISCs managed to
                                                                              determine whether an audit was           Of samples tested, 4 of 34 UNIX,
                                                                              conducted in accordance with             10 o f 56 Windows, and 13 of 42
                                                                              DoD STIGs.                               network devices did not retain audit
                                                                                                                       logs in accordance with DoD STIGs.

                                                                                                                       Of 56 Windows servers, 1 did not back
                                                                                                                       up audit records to a separate media.
11.2   Effective incident        SP3.4 TMS Remedy Tickets and/or              We interviewed personnel at the SMCs,    Of 247 TMS tickets, 15 had incorrect,
       response capability has   email is used as CSD’s incident              ISCs, and DECC Pacific to determine      incomplete, or missing questionnaires
       been implemented.         response and reporting tool.                 how they performed incident response     at two SMCs and two ISCs.
                                 Specifically, the following items from       and reporting.
                                 the questionnaire must be completed:
                                 • Were redundant systems available and       We inspected a sample of 247 TMS
                                 working? If no, explain.                     tickets at the SMCs, ISCs, and DECC
                                 • Confirm the overall impact the outage      Pacific to determine whether personnel
                                 has on the customer mission.                 properly completed the questionnaires.
                                 • Was scheduled batch processing jobs
                                 delayed? If yes, ensure question (2) is
                                 completely answered.
                                 • How many customer/user calls have
                                 been received?
                                 • Does this Incident exist in the Known
                                 Error Database (KEDB)?
                                 SP3.4 GS4 07-11 and CS Policy Letter         We determined whether the SMCs,          No relevant exceptions noted.
                                 CSD 06-02 provides guidance on               ISCs, and DECC Pacific followed the
                                 handling incidents, incident reporting       CSD Incident Handling Plan or local
                                 structure, and prioritization of incidents   Incident Handling Plan. We
                                 that are consistent with attributes noted    determined whether the CSD Incident
                                 in DODI 8500.2                               Handling Plan (GS4 07-11 and
                                                                              CS Policy Letter CSD 06-02) or the
                                                                              local plan complied with DoD policy.




                                                                              53
Change Control

No.    Control Objectives        Control Techniques                        Test of Operating Effectiveness            Results of Testing

 12    Controls provide reasonable assurance that changes to DISA owned assets are properly controlled.

12.1   DISA initiated specific   CC1.1 Customer requested changes:         At the SMCs, ISCs, and DECC Pacific,       No relevant exceptions noted.
       software or hardware      In accordance with CS Operational         we:
       modifications are         Change and Configuration Management       • obtained the local CCB charter;
       authorized and the        Plan, proposed changes to hardware,       • sought to understand the local CCB
       documentation is          operating system, utility software,       process, and we documented that
       maintained.               communications, and networks are          process;
                                 reviewed and approved in accordance       • obtained a list of the local CCB
                                 with established criteria. Local Change   members and asked whether the site
                                 Control Boards (CCBs) are in place at     IAM was a voting member of the CCB
                                 each of the four SMCs and three ISCs      • obtained copies of the minutes for the
                                 to oversee the change review and          last five CCB meetings. We reviewed
                                 approval process. The site IAM is a       and determined whether the minutes
                                 voting member of the local CCBs.          contained discussions of approval and
                                                                           disapproval of changes to hardware and
                                                                           OS software; and,
                                                                           • asked how distribution and
                                                                           implementation of software was
                                                                           communicated to appropriate
                                                                           organizations, and asked whether there
                                                                           was an audit trail of software
                                                                           distribution.

                                                                           At two SMCs and one ISC, we asked
                                                                           whether the site used Software Factory
                                                                           (SWF) or another system to track
                                                                           software distribution.




                                                                           54
CC1.1 In accordance with CS                At the SMCs, ISCs, and DECC Pacific,       No relevant exceptions noted.
Operational Change and Configuration       we:
Management Plan, proposed changes          • obtained the local CCB charter;
to hardware, operating system, utility     • sought to understand the local CCB
software, communications, and              process, and we documented that
networks are reviewed and approved in      process;
accordance with established criteria.      • obtained a list of the local CCB
Local CCBs are in place at each of the     members and asked whether the site
four SMCs and three ISCs to oversee        IAM was a voting member of the CCB;
the change review and approval             • obtained copies of the minutes for the
process. The site IAM is a voting          last five CCB meetings. We reviewed
member of the local CCBs.                  and determined whether they contained
                                           discussions of approval and disapproval
                                           of changes to hardware and OS
                                           software;
                                           • inquired how distribution and
                                           implementation of software was
                                           communicated to appropriate
                                           organizations, and whether there was an
                                           audit trail of software distribution.

                                           At two SMCs and one ISC, we asked
                                           whether the site used Software Factory
                                           (SWF) or another system to track
                                           software distribution.
CC3.2 Verification and acceptance of       We inspected the ESCCB operating           No relevant exceptions noted.
OS and utility software changes is         procedure document outlining the role
documented and approved, and               of the ESCCB to determine whether the
movements are controlled. The ESCCB        ESCCB controlled utility and operating
provides this control for OS and utility   system changes.
software at the Corporate level. Local
Change Management controls the             We inspected evidence to determine
implementation of OS and executive         whether the ESCCB documented and
software changes at the SMC and ISC        approved all ESCCB actions, and
level. All ESCCB actions are               whether the minutes of the ESCCB
documented and approved. Minutes of        meetings were available.
each ESCCB meeting are published and




                                           55
                                 all documentation is maintained and is        We inspected the System Support
                                 available online or upon request. The         Office product procedure installation
                                 actual distribution IBM mainframe             guide for the mainframe systems at one
                                 software is controlled via an ESCCB           site to determine whether the System
                                 and Software Factory (SWF) interface.         Support Office tracked, notified all
                                 All software distributed by the SWF is        appropriate organizations, and retained
                                 tracked, notifications are provided to        a complete audit trail for all software
                                 appropriate organizations and a               distributed by the SWF.
                                 complete audit trail is retained.

12.2   New and modified          CC2.1 As part of the SSOPAC process           We interviewed System Support Office       No relevant exceptions noted.
       hardware and OS/utility   for IBM mainframe OS releases:                management personnel for the
       software is tested and    • integration testing is performed to         IBM mainframes based at
       controlled according to   ensure functionality;                         DECC Mechanicsburg to determine
       specific criteria.        • performance and stress testing is           their process for performing integration
                                 performed, as required, to identify           tasking, performance and stress testing,
                                 impacts on system performance;                and security testing on IBM mainframe
                                 • security testing is performed for each      operating system releases
                                 OS system software release. Based
                                 upon test results, actions are initiated to
                                 rectify identified software deficiencies,
                                 performance impacts, and security
                                 problems.
                                 CC2.1 Document changes to hardware            At the SMCs, ISCs, and DECC Pacific,       No relevant exceptions noted.
                                 and OS software in the minutes of the         we:
                                 CCB.                                          • obtained the local CCB charter;
                                                                               • obtained an understanding of the local
                                                                               CCB process and documented that
                                                                               process;
                                                                               • obtained a list of the local CCB
                                                                               members and inquired whether the site
                                                                               IAM is a voting member of the CCB;
                                                                               • obtained copies of the last five CCB
                                                                               meeting minutes. Reviewed and
                                                                               determined whether they contain
                                                                               discussions of approval and disapproval
                                                                               of changes to hardware and OS




                                                                               56
                                                                             software; and
                                                                             • inquired how distribution and
                                                                             implementation of software was
                                                                             communicated to appropriate
                                                                             organizations, and whether there was an
                                                                             audit trail of software distribution.

                                  CC2.1 New systems, and changes to          We inspected documentation for a          No relevant exceptions noted.
                                  existing systems, are reviewed by an       sample of 302 Category I and II
                                  approving authority prior to connection    Changes to ensure they complied
                                  to the network in accordance with CSD      with CS Standard Operating
                                  Policy Letter GS4 07-16.                   Procedure 07-16.
12.3   Emergency changes are      CC2.2 Emergency change procedures          We reviewed the DISA CS Operational       No relevant exceptions noted.
       promptly approved.         are documented in the CS Change and        Change and Configuration
                                  Configuration Management Plan.             Management Plan to ensure it complied
                                                                             with DoD Instruction 8500.2.
12.4   Movement of programs       CC3.1 Mainframe Executive Software         We inspected system documentation         No relevant exceptions noted.
       and data among libraries   products are recorded and tracked.         from the Mechanicsburg SWF for
       is controlled.             Inventories are maintained which           mainframe systems to determine
                                  include version, maintenance level, out-   whether mainframe executive software
                                  of-support date, and documentation.        programs were recorded and tracked,
                                                                             and whether an inventory was
                                                                             maintained that included the version,
                                                                             maintenance level, out-of-support date,
                                                                             and related documentation

12.5   Use of public domain and   CC1.2 Use of personal and public           We inspected a sample of 80 desktop       Of 80 desktop computers, 9 contained
       personal software is       domain software on Government              computers to verify personal and public   unauthorized software at two SMCs
       restricted.                Equipment is in accordance with            domain software was in accordance         and one ISC.
                                  DODD 8500.1 and CSD OPS policy             with DOD Instruction 8500.1 and CSD
                                  06-03.                                     OPS Policy 06-03.




                                                                             57
Service Continuity

No.    Control Objectives        Control Techniques                         Test of Operating Effectiveness            Results of Testing

       Controls provide reasonable assurance that procedures and controls are in place to prevent or minimize unexpected
 13
       interruptions.

13.1   Data and program backup   SC2.1 As a standard service, each site     We interviewed computer center             No relevant exceptions noted.
       procedures have been      has an off-site and transportation         operations staff at the SMCs, ISCs, and
       implemented.              agreement. (The customer must agree        DECC Pacific to determine their
                                 to pay for additional services not         off-site and transportation requirements
                                 included in the standard package and       for backup media.
                                 documented in the SLA.)
                                                                            We inspected the off-site transportation
                                                                            agreement for the SMCs, ISCs, and
                                                                            DECC Pacific to determine whether
                                                                            personnel transported backup media to
                                                                            the off-site location in accordance with
                                                                            SLA requirements.
                                 SC2.1 Standard data and program            We inspected the off-site transportation   No relevant exceptions noted.
                                 backup procedures (outlined in CS          agreement for SMCs, ISCs, and
                                 Policy Ltr 06-01) are conducted in         DECC Pacific to determine whether the
                                 accordance with the appropriate DOD        agreement included:
                                 STIGs, SLA requirements and CSD            • weekly full data backup,
                                 Policy Ltr 06-01. (The customer must       • incremental daily backup,
                                 agree to pay for additional services not   • detailed back up procedures,
                                 included in the standard package and       • a plan for rotating backup media, and
                                 documented in the SLA.)                    • storage and retention procedures for
                                                                            backup media.




                                                                            58
13.2   Environmental Controls   SC2.2 Computing facilities and support      At the SMCs, ISCs, and DECC Pacific,        No relevant exceptions noted.
       have been implemented.   areas have automatic notification of        we interviewed data center personnel
                                activation of smoke detectors that alarm    and inspected the data center to
                                locally and at supporting fire              determine whether the following
                                department.                                 environmental controls were in place:
                                • Some administration areas have            • automatic notification of activation of
                                automatic notification of activation of     smoke detectors that alarms locally and
                                smoke detectors. Some of these alarm        at the supporting fire department,
                                locally; some alarm locally and at the      • annual fire inspections,
                                supporting fire department.                 • automatic activation of fire
                                • Fire inspections are made based on        suppression systems, and
                                local site rules.                           • administration areas either having
                                • Computing facilities and support areas    automatic activation of fire suppression
                                have automatic activation of fire           systems or hand-held extinguishers.
                                suppression systems.
                                • Administration areas have either
                                automatic activation of fire suppression
                                systems or hand-held extinguishers
                                located throughout the area.
                                SC2.2 Computer facilities have:             At the SMCs, ISCs, and DECC Pacific,        Temperature and humidity gauges
                                • automatic humidity and temperature        we interviewed data center personnel        were not working properly at one ISC.
                                controls systems that alarm when            and inspected the data center to
                                established humidity and temperature        determine whether the following
                                conditions are exceeded;                    environmental controls were in place:
                                • a master power switch located at or       • automatic humidity and temperature
                                near the main entrance, which is labeled    controls systems that alarm;
                                and protected by a cover to prevent         • a master power switch located at or
                                accidental shut-off;                        near the main entrance, labeled and
                                • automatic voltage control systems that    protected by a cover to prevent
                                alarm if the voltage fluctuates beyond      accidental shut-off;
                                established safe operations levels;         • automatic voltage control systems that
                                • a minimum of two electrical feeds;        alarm;
                                • battery powered uninterrupted power       • a minimum of two electrical feeds;
                                system to provide sufficient power to all   • battery powered uninterrupted power
                                systems in the computer room to allow       supplies and voltage regulators; and
                                for at least 20 minutes of operations       • backup generators that are tested
                                • backup generators that are set to         monthly and set to automatically start.




                                                                            59
                                 automatically start-up and generate
                                 power when commercial power fails.
                                 The generators are tested monthly for
                                 operations and power generations.
                                 Additional fuel and spare parts are on
                                 hand to provide for sustained
                                 operations.
13.3   IT Hardware maintenance   SC2.4 Policies and procedures for IT     We reviewed IT equipment                 No relevant exceptions noted.
       controls have been        equipment maintenance exist and are      maintenance policies and procedures to
       implemented.              up-to-date.                              determine their adequacy for the
                                                                          current operating environment of the
                                                                          computing facility.
                                 SC2.4 Routine periodic preventive        We interviewed computer operations       No relevant exceptions noted.
                                 maintenance on IT equipment is           personnel at the SMCs, ISCs, and
                                 scheduled and performed in accordance    DECC Pacific to determine the process
                                 with vendor specifications and in a      for scheduling preventative
                                 manner that minimizes the impact on      maintenance on facilities equipment
                                 operations or as provided for in the     and tracking completion of scheduled
                                 maintenance contract.                    maintenance.

                                 SC2.4 Regular and unscheduled            We interviewed computer operations       No relevant exceptions noted.
                                 maintenance on IT equipment is           personnel at the SMCs, ISCs, and
                                 performed and documented.                DECC Pacific to determine the process
                                                                          for scheduling maintenance on
                                                                          IT equipment and documenting
                                                                          completion of scheduled/unscheduled
                                                                          maintenance.

                                 SC2.4 Flexibility exists in the data     We obtained and reviewed the schedule    No relevant exceptions noted.
                                 processing operations to accommodate     for routine IT equipment preventive
                                 regular and a reasonable amount of       maintenance.
                                 unscheduled maintenance.
                                                                          We interviewed the Facilities Manager
                                                                          to determine whether personnel
                                                                          documented the unscheduled
                                                                          maintenance on IT hardware.




                                                                          60
                                                                               We requested any unscheduled
                                                                               maintenance records that occurred in
                                                                               the previous 6 months.

                                    SC2.4 Spare or backup hardware is          We interviewed computer operations        No relevant exceptions noted.
                                    used to provide a high level of system     personnel for the SMCs, ISCs, and
                                    availability for critical and sensitive    DECC Pacific to determine whether
                                    applications.                              spare or backup hardware inventory
                                                                               existed.

                                    SC2.4 Records are maintained on the        We obtained and reviewed the schedule     No relevant exceptions noted.
                                    actual performance in meeting IT           for routine IT equipment preventive
                                    equipment service schedules.               maintenance.

                                                                               We obtained and reviewed the
                                                                               IT hardware maintenance records. We
                                                                               compared the maintenance records to
                                                                               the maintenance service schedule and
                                                                               determined whether the records were in
                                                                               accordance to the service schedule.
13.4   Staff have been trained to   SC2.3 Data center staff receive periodic   We interviewed the Security Manager       No relevant exceptions noted.
       respond to emergencies.      training in emergency fire, flooding,      to determine whether employees
                                    and alarm incident procedures.             received initial and annual training in
                                                                               emergency response.

                                                                               We determined how the site keeps track
                                                                               of employees’ understanding and
                                                                               training of emergency response
                                                                               procedures.
                                    SC2.3 Emergency response procedures        We inspected emergency response           No relevant exceptions noted.
                                    are documented.                            procedures for the SMCs, ISCs, and
                                                                               DECC Pacific to determine whether
                                                                               procedures were documented.




                                                                               61
                              SC2.3 Emergency procedures are           We inspected emergency plans and test      One ISC did not perform an annual fire
                              periodically tested.                     results for the SMCs, ISCs, and            drill.
                                                                       DECC Pacific to determine whether
                                                                       personnel tested emergency procedures
                                                                       annually and documented the test
                                                                       results.
                              SC2.3 Data center employees have         We interviewed the SM at the               No relevant exceptions noted.
                              received training and understand their   SMCs, ISCs, and DECC Pacific to
                              emergency roles and responsibilities.    determine whether employees received
                                                                       initial and annual training in emergency
                                                                       response. We determined how the site
                                                                       tracked employees’ understanding and
                                                                       training of emergency response
                                                                       procedures.
13.5   Facility maintenance   SC2.4 Flexibility exists in the data      We interviewed the Facilities Manager     No relevant exceptions noted.
       controls have been     processing operations to accommodate     at the SMCs, ISCs, and DECC Pacific
       implemented.           regular and a reasonable amount of       to determine whether there was backup
                              unscheduled maintenance.                 facilities equipment to accommodate
                                                                       scheduled/unscheduled maintenance.
                                                                       We interviewed the Facilities Manager
                                                                       to determine who performed the
                                                                       scheduled/unscheduled maintenance.
                                                                       We verified with the Base Support
                                                                       Agreement/Interagency Support
                                                                       Agreement to determine whether
                                                                       authorized personnel performed
                                                                       maintenance.




                                                                       62
SC2.4 Records are maintained on the        We obtained and reviewed the schedule     No relevant exceptions noted.
actual performance in meeting facilities   for routine facility equipment
equipment service schedules.               preventive maintenance.

                                           We obtained and reviewed the facilities
                                           maintenance records (for example,
                                           records for generator/fuel tanks,
                                           batteries/Uninterrupted Power Supply,
                                           and chillers). We compared the
                                           maintenance records to the maintenance
                                           service schedule obtained and
                                           determined whether the records were in
                                           accordance to the service schedule.
SC2.4 Regular and unscheduled              We interviewed the Facilities Manager     No relevant exceptions noted.
maintenance on facilities equipment is     at the SMCs, ISCs, and DECC Pacific
performed and is documented.               and determined whether personnel
                                           documented regular/unscheduled
                                           maintenance on facility equipment.

                                           We obtained and reviewed the facilities
                                           maintenance records (for example,
                                           records for generator/fuel tanks,
                                           batteries/UPS, and chillers). We
                                           requested any unscheduled
                                           maintenance records that occurred
                                           within the previous 6 months.

SC2.4 Routine periodic preventive          We interviewed the Facilities Manager     No relevant exceptions noted.
maintenance on facilities equipment is     at the SMCs, ISCs, and DECC Pacific
scheduled and performed in accordance      to determine who performed routine
with vendor specifications and in a        periodic preventive maintenance on
manner that minimizes the impact on        facilities equipment and whether
operations.                                authorized persons performed
                                           maintenance in accordance with the
                                           Base Support Agreement/Interagency
                                           Support Agreement.




                                           63
Section IV: Supplemental Information Provided by DISA




                         65
The DISA 2005 Statement on Auditing Standards No. 70 project included some
conditions pertaining to security systems and procedures that are beyond the purview of
CS. The following is a summary of those issues that continue to require support from
external sources and were identified prior to inception of the 2006 project.

2005 Results of Testing Requiring DoD or DISA Enterprise Solutions

Audit Trails. The DoD Office of Inspector General recommended that the CS Director
implement more consistent procedures across the enterprise to create, monitor and
review, protect, and maintain CS system audit trails in order to comply with the
requirements of DoD Instruction 8500.2 and STIGs. In addition, it was recommended
that CS implement and configure software audit capabilities such that security personnel
could extract critical events from system data on a daily basis; conduct in-depth, daily
reviews of all audit trails for suspicious activity; and investigate security incidents with
automated access to all audit data.

        Status: DISA does not currently have the automated tools required to meet these
objectives. Implementation of the appropriate programs is pending implementation
resources and technical recommendations from the DISA FSO.

Host-Based Intrusion Detection Systems. It was recommended that the CS Director
deploy host-based intrusion detection systems software on all major application servers,
network management assets, and domain name servers, in accordance with DoD
Instruction 8500.2 and the STIGs.

        Status: DoD has awarded a contract for an enterprise-wide, host-based security
solution. CS is implementing the DoD-wide, host-based security solution.




                                             67
Scope
Defense Enterprise Computing Centers in Scope of This Report

  Systems Management Centers
    Mechanicsburg, Pennsylvania
    Montgomery, Alabama
    Ogden, Utah
    Oklahoma City, Oklahoma

  Infrastructure Services Centers
     Columbus, Ohio
     San Antonio, Texas
     St. Louis, Missouri

  Pacific, Pearl Harbor, Hawaii




                                      69
Acronyms and Abbreviations
BMC       Business Management Center
CCC       Communications Control Center
CIO       Chief Information Officer
CS        Center for Computing Services
DAA       Designated Approving Authority
DECC      Defense Enterprise Computing Center
DISA      Defense Information System Agency
DITSCAP   Defense Information Technology Certification and Accreditation Process
DoD       Department of Defense
FSO       Field Security Operations
GIG       Global Information Grid
GSA       General Services Administration
IA        Information Assurance
IAM       Information Assurance Manager
IAO       Information Assurance Officer
IAR       Information Assurance Review
IDS       Intrusion Detection System
ISC       Infrastructure Services Center
IT        Information Technology
MAC       Mission Assurance Category
MPS       Manpower, Personnel, and Security
OMB       Office of Management and Budget
PE        Processing Element
POA&M     Plan of Action and Milestones
SA        System Administrator
SLA       Service-Level Agreement
SM        Security Manager
SMC       System Management Center
SRR       Security Readiness Review
SSAA      System Security Authorization Agreement
SSO       System Support Office
STIG      Security Technical Implementation Guide
VMS       Vulnerability Management System




                                      71
Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
Commander, U.S. Strategic Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget
Government Accountability Office




                                          73
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
Relations, Committee on Government Reform




                                        74
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service, in conjunction with contract auditors from
Ernst & Young LLP, prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Patricia A. Marsh
Patricia C. Remington
Richard Ng
G. Marshall Grimes
Suzette L. Luecke
Chi H. Lam
Tomasa Pack
Patricia Joyner
Wen-Tswan Chen
Jenny R. Ansel
Catherine Cervantes
Kenneth J. Bensman
Justin L. Symonds
Robert Shell
Kandasamy Selvavel
Eric Bisignano
Anh Tran
Edward Kell
Jaime A. Bobbio
Minh Q. Tran
Patricia Papas
Erin S. Hart
